         OFFICE            OF      INSPECTOR                        GENERAL




                                Semiannual Report to the Congress
                                   April 1 - September 30, 1995




UNITED            STATES              DEPARTMENT                        OF    LABOR
 SemiannualReportto the Congress                                                         April1 - September30, 1995




 THE INSPECTOR GENERAL'S MESSAGE

 This Semiannual Report, covering the period ofApril 1through September 30, 1995, documents some of
 the most significant accomplishments ofthe U.S. Department of Labor (DOL), Office of Inspector General
 (OIG). During this very important period of change in Govemment, my office continued to work extensively
 with the Department, the Congress,and other FederalAgenciesto ensure the integrityand efficiency of DOL
 programs, to safeguard the taxpayers' investment, and to ensure that the American worker is served inthe
 most efficient and cost-effective way.

 Through audits, investigations, and congressionaltestimony and briefings,my office has focused attention
 on: the effectiveness and efficiency of several employment and training programs; fraud in workers'
 compensation and unemployment insurance programs; and criminal activity by traditional and non-
 traditional organized crime groups.

 Just as we strive to improve operations atthe Departmental level, my office has continued to examine ways
 to improve the way we do business and how we can maximize our effectiveness. One initiative in this area
 has been the implementation ofthe OIGStrategic Plan. This plan establishesthe long-term direction, goals,
 and priorities of the organization and outlines the actions needed to achieve them. An important feature of
 the plan is the built-in participation of staff at all stages of implementation, which Ibelieve will add to our
 Success.


 During my tenure at DOL, Ihave worked extensivelyto improve and streamline the mechanisms that grant
 law enforcement powersto OIG criminal investigators. While the InspectorGeneralAct established criminal
 investigative authority for OIGs, it did not provide the statutory authority for OIG investigators to execute
 search warrants, make arrests, or carryfirearms. Accordingly, the Department of Justice (DOJ)instituted
 case-specific delegations ofU.S.Marshaldeputation authorityto certainOIG investigators to carry outthese
 functions. However, this process (which required a specific request and decision by DOJ for each case)
 proved to be cumbersome, time-consuming, and costly. We estimate that it cost us approximately $80,000
 per year, and that for other OIGs Government-wide, the costs totalled hundreds of thousands of dollars
 annually.

 Working with the Federal Bureau of Investigation, DOJ, and other OIGs, this past July we succeeded in
 obtaining annual deputation for investigators in our Program Fraud Division, as well as for six other OIGs.
 This authority was granted on a pilotbasis. Upon evaluation, it may result in such authority beingextended
 to other OIGs and in DOJ support for statutory law enforcement authority for OIG criminal investigators.

 Iwould like to thank my colleagues in the OIG for their efforts to make Government work better. As in the
 past, my staffand Iremain committed to working with Secretary Reich and the DOL management team to
 reduce fra_te,           and abuse of Federal funds; to ensure that DOL programs are effective and cost-


                                    uence of organized crime in the American workplace.
 Charl_s_._sten
In(_;_ctor_eneral
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




SIGNIFICANT CONCERNS

                                    The OIG continues to have concerns about our lack of immediate
Access to                           access to state unemployment insurance wage reporting records.
Ul Wage Records                     These records are often needed during the course of OIG program
is Needed                           oversight audits or criminal investigations to ascertain or verify wage
                                    and employment information. In many cases, these wage records
                                    are the only accurate sources of such information and, thus, crucial to
                                    the success of the audit or investigation.

                                    It is important to note that the OIG does have subpoena authority
                                    under the Inspector General Act of 1978, as amended. However, to
                                    obtain these records from States that refuse to provide them requires
                                    judicial enforcement, which results in unnecessary delays and has
                                    proven to be time-consuming and expensive.

                                    The States, employers, and the Department's Employment and
                                    Training Administration (ETA) have expressed privacy and cost
                                    concerns in providing the data. Arguments have also been raised
                                    that it would create a domino effect with other agencies seeking
                                    similar authority. The problem is compounded by the fact that ETA's
                                    regulations for the UI Program specifically state that wage records
                                    should be confidential and released only under certain circum-
                                    stances.

                                    While these arguments have validity, the OIG believes that the
                                    Government's interest in protecting the billion dollar programs of the
                                    Department of Labor far outweighs these concerns. Infact, there are
                                    other Federal agencies that have been given statutory authority to
                                    access these records to aid them in the oversight of their programs.
                                    These agencies include the Departments of Health and Human
                                    Services, Agriculture, and Housing and Urban Development. It is
                                    also important to note that administration costs for the UI Program are
                                    paid out of DOL funds.

                                    The OIG urges Congress to provide the DOL-OIG the statutory
                                    authority to obtain UI wage records without having to resort to
                                    subpoena enforcement proceedings, and to extend such authority to
                                    the Department as a whole.
Semiannual Report to the Congress                                                   April 1 - September 30, 1995




                                    In previous semiannual reports, the OIG has called attention to the
Revisions       of Tax Credit       ineffectiveness of the Targeted Jobs Tax Credit (TJTC) Program.
Program Need toAddress              TJTC was created to induce employers to hire disadvantaged
Weaknesses                          individuals in exchange for Federal tax credits. However, during a
                                    1994 OIG nationwide audit of the program, employers acknowl-
                                    edged they would have hired 92 percent of the employees in our
                                    sample, regardless of the subsidy.

                                    The TJTC Program, which accounted for revenue losses to the
                                    Treasury of about $300 million a year, was allowed to expire in
                                    December 1994. However, legislation is being considered in
                                    Congress that would reauthorize the program with minor
                                    modifications. Notwithstanding the OIG's continuing recommenda-
                                    tion that TJTC be eliminated, the OIG is of the opinion that any
                                    legislation reauthorizing the program needs to, at a minimum, ensure
                                    meaningful employee retention by requiring that the 1-year tax credit
                                    period begin only after individuals have been employed for 6 months,
                                    duringwhich notax subsidy isoffered. In addition, individuals should
                                    be pre-certified and issued a voucher by the employment service
                                    before they are placed on employers' rolls.             Absent such
                                    requirements, many of the same problems that surfaced under the
                                    prior legislation will continue to plague the program.


.....                               During this reporting    period,   the OIG has been monitoring
Job Training System                 congressional efforts to change the Nation's job training system. In
Reforms Need to Ensure              proposals passed by both the House and Senate, States would
                                    receive Federal funds, in the form of block grants, to operate and
Accountability
                                    administer their own job training systems.



Fiscal     Accountability           The OIG raised its concerns that, while boththe House and Senate
                                    bills have requirements for reporting performance measures and
                                    goals, there are no requirements for the States to submit financial
                                    reports to the Federal Government. The OIG recommended
                                    inclusion of a provision requiring States to submit yearly financial
                                    reports. Together with the performance reports, the financial
                                    information will enable the Department and the Congress to
                                    ascertain how the Federal funds allocated to each State have been
                                    spent and to better assess the program's return on the taxpayers'
                                    investment.




                                                     1ll
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




Liability for                       The OIG also raised its concernswith proposed provisions thatwould
Misexpenditures                     allow States to offset, with subsequent years' funding, costs that have
of Job Training                     been disallowed or otherwise determined to have been misspent. An
                                    exception is made in cases involving fraud or other criminal activity.
Funds                               Over the years, the Department has disallowed millions and millions
                                    of dollars as a result of costs questioned by OIG audits. These
                                    questioned costs have resulted from our detection of gross abuses
                                    and program mismanagement on the part of job training program
                                    operators, including States, service delivery areas, contractors, and
                                    grantees. Some examples of disallowed costs include the use of
                                    Federal funds for personal expenses, first class travel, expensive
                                    hotels, entertainment, lobbying activities, purchase of expensive
                                    computer equipment for use by non-participants, salaries and fringe
                                    benefits for non-DOL activities, etc.

                                    Currently, the entity receiving the funding is responsible for
                                    reimbursing the Government, with non-Federal funds, for these types
                                    of unallowable expenses. Under the proposed provisions, the States
                                    would be allowed to use future years' program funds, which are
                                    intended for program beneficiaries, to offset the mistakes of program
                                    operators, even though the expenditures are obviously unallowable
                                    but not fraudulent.

                                    The OIG isof the opinion that such provisions, if enacted, will negate
                                    intended fiscal accountability and eliminate deterrence against
                                    waste, abuse, and mismanagement of already-scarce Federal
                                    funds.



                                    The Office of Inspector General has a significant concern that the
Amendments           to the         revised information collection procedures found in the Paperwork
                                    Reduction Act (PRA) of 1995, P.L. 104-13, and its implementing
Paperwork Reduction Act
                                    regulations,will infringeonthe independence of the OIG. Inparticular,
Infringe on
                                    the OIG is concerned that the internal agency review procedures
IG's Independence
                                    create a direct conflict with the reporting and non-interference
                                    provisions of the Inspector General Act. Under OMB's amended
                                    regulations (60 Federal Register 44978, August 29, 1995), the OIG
                                    will be required to submit all proposed information collections
                                    (subject to the PRA) to a designated agency PRA official for review
                                    and clearance.

                                    This procedure creates a direct conflict with the Inspector General
                                    Act and infringes on the OIG's independence. The head of an




                                                      il)
Semiannual Report to the Congress                                                   April 1 - September 30, 1995




                                    agency, through the designated PRA official, would have an
                                    opportunity to delay and/or prevent audits or evaluations deemed to
                                    be potentially contrary to the agency's interests. Further, the
                                    Inspector General would be required to report to an agency official
                                    below the rank of Deputy Secretary.

                                    The changes in the information collection procedures may also
                                    further impede the ability of the OIG to conduct timely and effective
                                    programmatic audits. Under the new PRA provisions, each agency
                                    must establish its own expanded internal review, public comment,
                                    and approval system, before a proposed information collection is
                                    forwarded to OMB for final approval and the issuance of a PRA
                                    control number. This new procedure portends greater delays in
                                    getting PRA approvals, which means an even greater problem for IG
                                    audits. This sort of delay decreases the impact of audit findings and
                                    recommendations, as well as the likelihood and timeliness of
                                    possible corrective actions by the agency.
Semiannual
        Report
            totheCongress                                                                                                                 April1 - September
                                                                                                                                                          30,1995




TABLE OF CONTENTS

THE INSPECTOR                    GENERAL'S                MESSAGE               ........................................................................................ i



SIGNIFICANT      CONCERNS .................................................................................................................... it
Access to UIWage Records is Needed .......................................................................................................... ii
Revisions of Tax Credit Program Need to Address Weaknesses ................................................................. iii
Job Training System Reforms Needto Ensure Accountability ..................................................................... iii
Amendments to the Paperwork Reduction Act Infringe on IG's Independence ......................................... iv



SELECTED        STATISTICS
  April 1 - September 30, 1995 ........................................................................................................................                 1


OFFICE         OF AUDIT ....................................................................................................................................            2

EMPLOYMENTAND TRAININGADMINISTRATION.......................................................................................... 2
JTPA Title IV ...................................................................................................................................................  3
  The Job Corps Program................................................................................................................................            3
  The Migrantand SeasonalFarmworkersProgram ......................................................................................... 9
   Native American Programs......................................................................................................................... 11
JTPA Title II ..................................................................................................................................................  12
Older Worker Programs ............................................................................................................................... 14

BUREAUOF LABORSTATISTICS .................................................................................................................                             16

FINANCIALAND PERFORMANCEREPORTINGUNDERTHE CFOACT ......................................................... 17
Status of Implementing the CFO Act ........................................................................................................... 17
FY 1994 Consolidated Financial Statements ............................................................................................... 18
Audit of FY 1994 Performance Measures ..................................................................................................... 22

AUDIT RESOLUTION .....................................................................................................................................                 24
ETA's Use of ADR in Audit Resolution ..........................................................................................................                        24
Significant Audit Resolution ........................................................................................................................                  26
  Revised ManagementDecisions.................................................................................................................                         31


OFFICE         OF INVESTIGATIONS                        .....................................................................................................          32

OVERVIEW ....................................................................................................................................................          32
DIVISION OF PROGRAM FRAUD ..................................................................................................................                           32
Medical Provider Fraud ...............................................................................................................................                 33
Claimant Fraud .............................................................................................................................................           36
  The Federal Employees'CompensationActProgram..................................................................................                                       36
  The Black LungProgram ............................................................................................................................                   37




                                                                                    vi
Semiannual Report to the Congress                                                                                                      April 1 - September 30, 1995




Employee Integrity .......................................................................................................................................      37
  Mine Safety and Health ..............................................................................................................................         38
  DepartmentalIntegrity................................................................................................................................         40
Unemployment Insurance Fraud .................................................................................................................                  41
Job Training Partnership Act Fraud .............................................................................................................                44

DIVISION OF LABOR RACKETEERING..........................................................................................................                        46
Organized Crime ..........................................................................................................................................      46
Non-Traditional Organized Crime ................................................................................................................                47
  ProtectingAmerica's Workers....................................................................................................................               48
Labor-Management Relations......................................................................................................................                49
Employee Benefit Plan Investigations .........................................................................................................                  53

COMPLAINT ANALYSISOFFICE ACTIVITIES ...............................................................................................                             59

APPENDIX -OFFICE OF INVESTIGATIONS FINANCIALACCOMPLISHMENTS ............................................ 60


OFFICE         OF EVALUATIONS                     AND INSPECTIONS                       .....................................................................   61


REPORTING               REQUIREMENTS                     UNDER          THE" INSPECTOR                     GENERAL               ACT OF 1978 ...... 64


AUDIT SCHEDULES           ..............................................................................................................................        65
MoneyOwed the Departmentof Labor.............................................................................................................                   67
Summary of AuditActivityof DOLPrograms....................................................................................................                      68
Summary of AuditActivityof ETA Programs.....................................................................................................                    69
Summary of Audits PerformedUnder the SingleAuditAct ................................................................................                            70
Summary of AuditsPerformed UndertheSingleAuditAct - Multi-AgencyProgramReports ..............................                                                   71
Auditsby Non-FederalAuditors,PCIE SemiannualReporting- Summary Resultsof IG Reviews.......................                                                      72
Summary of AuditResolutionActivity- QuestionedCosts................................................................................                             73
Summary of AuditResolutionActivity- UnsupportedQuestionedCosts............................................................                                      74
Summary of AuditResolutionActivity- FundsPutto BetterUse ......................................................................                                 75
UnresolvedAuditsOver6 Months....................................................................................................................                76
Summary of FinalActionActivity- DisallowedCosts........................................................................................                         77
Summary of FinalActionActivity- FundsPutto BetterUse .............................................................................                              78
SignificantRecommendationsResolvedfor Over OneYearonwhich
 CorrectiveActionHas Not BeenCompleted(asof September30, 1995) .........................................................                                        79
FinalAudit Reports Issued ..............................................................................................................................        82




                                                                                vii
SemiannualReportto the Congress                                                                               April 1 - September 30, 1995




SELECTED STATISTICS
April 1 - September 30, 1995


Office of Audit

Reports issued on DOL activities ......................................................................................... 188
Total questioned costs ............................................................................................ $ 7.1 million
Dollars resolved ..................................................................................................... $13.8 million
       Allowed ........................................................................................ $ 5.8 million
       Disallowed ................................................................................... $ 8.0 million

Office      of Investigations

Division of Proqram Fraud:

Cases opened ..................................................................................................................... 201
Cases closed ....................................................................................................................... 147
Cases referred for prosecution ............................................................................................... 87
Cases referred for administrative/civil action .......................................................................... 56
Indictments............................................................................................................................. 82
Convictions ............................................................................................................................ 82
Recoveries, cost efficiencies, restitutions,fines/penalties,
  and civil monetary actions ..................................................................................... $ 7.7 million

Division of Labor Racketeerinq:

Cases opened ....................................................................................................................... 43
Cases closed ......................................................................................................................... 45
Indictments............................................................................................................................. 53
Convictions ............................................................................................................................ 86
Debarments ........................................................................................................................... 19
Fines, restitutions, forfeitures, and civil monetaryactions .......................................... $ 6.9 million




NOTE: The Office of Investigations conducts criminal investigations of individuals which can lead to prosecutions ("convic-
tions") by criminal complaints, warrants, informations, indictments, or pre-trial diversion agreements.    Successful prosecu-
tions may carry sentences such as fines, restitutions, forfeitures, or other monetary penalties. The Office of Investigations'
monetary results also include administrative and civil actions which are further detailed and defined in an Appendix found on
page 60 of this report.
SemiannualReport to the Congress                                                    April 1 - September30, 1995




OFFICE OF AUDIT

                                   During this reporting period, 188 audits of program activities, grants,
                                   and contracts were issued. Of these, 17 were performed by OIG
                                   auditors, 14 by CPA auditors under OIG contract, 26 by state and
                                   local government auditors for DOL grantees and subrecipients, and
                                   131 by CPAfirrns hired by DOL grantees or subrecipients. A listing
                                   of audits issued is contained in the Audit Schedules section at the
                                   back of this report.

                                   Audits issued in this reporting period questioned $7.1 million in
                                   costs. In addition, departmental agencies issued management
                                   decisions disallowing a total of $8 million in response to current
                                   period and prior audit recommendations.


                                   The Employment and TrainingAdministration (ETA) administers a
                                   number of statutes related to: employment and training services for
EMPLOYMENT                         the unemployed and underemployed, employment security for
AND TRAINING                       workers, and other programs that are directed to the employment
ADMINISTRATION                     needs of the Nation.

                                   A major ETA responsibility is to administer the Job Training
                                   Partnership Act (JTPA). JTPA authorizes a decentralized structure
                                   for the delivery of employment and training services, which is funded
                                   through grants and administered predominantly by the states. ETA's
                                   employment security functions are carried out by the Unemployment
                                   Insurance Service (UIS), which administers a nationwide
                                   unemployment compensation system, and the U.S. Employment
                                   Service (USES), which administers a nationwide publicemployment
                                   service system. Programs under the UIS and USES are operated by
                                   State Employment Security Agencies.

                                   The Job Training Partnership Act (JTPA) is the largest training
                                   program administered by DOL. The purpose of JTPA is to prepare
                                   youth and adults facing serious barriers to employment for
                                   participation in the labor force by providing them with training and
                                   other services that will result in increased employment and earnings.
                                   Congress appropriated over $5 billion for JTPA in Fiscal Year 1995.
SemiannualReport to the Congress                                                  April 1 - September 30, 1995




                                   JTPA Title IV authorizes employment and training programs for the
JTPA TITLE IV                      Job Corps, Veterans' Employment, Native Americans, Migrantand
                                   Seasonal Farmworkers, and other activities and programs
                                   collectively known as "National Programs."


THE JOB CORPS                      The Job Corps program is administered by ETA, through the Office
PROGRAM                            of Job Corps. The Job Corps is designed to assist economically
                                   disadvantaged, unemployed, and out-of-school youth (ages 16-24)
                                   in obtaining employability skills by offering basic education,
                                   vocational training, work experience and supportive services in a
                                   residential setting. Training centers are operated both by private
                                   vendors and Federal agencies.

                                   The Job Corps program was established to provide certain
                                   underprivileged youths with an intensive education and vocational
                                   training program in order to become "more responsible, productive,
                                   and employable citizens." The program provides comprehensive
                                   training in basic and vocational education, work experience,
                                   counseling and other enrichment activities, as well as placement
                                   assistance.

Job Corps                          The OIG completed an audit of outcomes achieved for a sample of
Student Outcomes                   1,800 students who were placed, or whose period of placement
Audit                              assistance expired, during Program Year (PY) 1991 (July 1, 1991
                                   through June 30, 1992).

                                   We attempted to follow the 1,800 randomly selected students from
                                   the date they left Job Corps until December 31,1993. [t is important
                                   to note, however, that this process was hampered by the lack of
                                   access to wage histories maintained by the states.

Overall Evaluation                 Approximately 2 years following their termination from Job Corps, the
of Sample                          OIG could not determine the career status of 1,001 of the 1,800
                                   students in our sample. Consequently, the OIG was unable to
                                   determine whether or not these students were working following their
                                   participation in the program, for which Job Corps had invested
                                   approximately $12.5 million.

                                   Due to the large number of students whose outcomes were unknown,
                                   the audit results should not be used to evaluate program success or
                                   failure.
SemiannualReport to the Congress                                                     April 1 - September 30, 1995




                                   For those students for whom we were able to obtain information on
                                   matched jobs (i.e., employment related to the training received) and
                                   unmatched jobs, we found that, between termination from the
                                   program and December 31,1993, average hourly wages increased
                                   by 19 percent, or $0.91 per hour, to $5.79 for unmatched jobs and 15
                                   percent, or $0.88 per hour, to $6.87 for matched jobs. For the
                                   unmatched jobs, this would represent an income of approximately
                                   $12,040 if the student worked afull year. For the matched jobs, these
                                   earnings would represent an income of approximately $14,290 if the
                                   student worked a full year. However, the OIG found that only 33
                                   percent of the students who were employed on December 31,1993,
                                   worked a full year. Bureau of Labor Statistics data shows that annual
                                   living expenditures average $13,407 for a single male under the age
                                   of 25 and $17,2.58 for a head of household.

Audit Results                      Student Population: We selected 1,800 students from the 59,467
                                   students whose period of placement assistance expired during PY
                                   1991. We then compared employment status as of December 31,
                                   1993, with the information recorded in the Job Corps data base at the
                                   expiration of the students' individual 180-day placement periods.
                                   (Job Corps has established a 180-day period, following departure
                                   from the program, for the placement contractors to place the
                                   students.) Our results are summarized below:

                                   Students Whose Career Status Was Unknown: Job Corps data
                                   showed that the career status of413 of the students (that is, 23% of
                                   our total sample) could not be determined at the time of their
                                   termination from the program. As of December 31,1993, the number
                                   of students in our sample whose career status was unknown
                                   increased to 1,001 students (56%).

                                   Students Who Were Not Placed in Employment or Additional
                                   Training" Job Corps data showed that 292 of the students (16%)
                                   were not placed in employment or additional training at the time they
                                   terminated from the program We found that, as of December 31,
                                   1993, 184 of the students (10%) were unemployed.

                                   Employed In Jobs Not Related to Their Vocational Training:
                                   Job Corps' data showed that 600 of the students (33%) obtained
                                   unmatched employment (employment in occupations outside their
                                   vocational training) at the time of their termination from the Job Corps
                                   Program, with average starting wages of $4.88 per hour. The OIG
                                   found that, as of December 31,1993, 446 of the students (25%) had
SemiannualReportto the Congress                                                    April1 - September30, 1995




                                  obtained unmatched employment, with an average hourly wage of
                                  $5.79. For this category of students, the average hourly wage
                                  equates to an annual salary of $12,040.

                                  Employed In Jobs Related to Their Vocational Training: Job
                                  Corps data showed that 268 of the students (15%) obtained matched
                                  employment (employment in occupations for which they were
                                  trained) at the time of their termination from the program, with
                                  average starting wages of $5.99 per hour. The OIG found that, as of
                                  December 31,1993, 120 of the students (7%) had obtained matched
                                  employment, with an average hourly wage of $6.87. For this category
                                  of students, the average hourly wage equates to an annual salary of
                                  $14,290.

                                  Enrolled in School or Military: Job Corps data showed that atthe
                                  time of termination from the program, 204 of the students (11%)
                                  enrolled in school, while 23 (1%) entered the military. As of
                                  December 31, 1993, a total of 49 students were either enrolled in
                                  school or in the military.

Better Meeting Students'          We believe that Job Corps could improve the long-term outcomes of
and Employers' Needs              Job Corps students by better meeting students' and employers'
May Help Achieve                  needs. We interviewed Job Corps National and Regional Office
Long-term Employment              staff, Center Directors and placement agency officials to gain an
                                  understanding of how they conduct labor market research to
                                  determine occupations in demand in the centers' geographic areas
                                  and how the centers establish vocational curricula.

                                  The OIG found that the vocational curriculum for each center is
                                  determined by the Job Corps National Office and that none of the
                                  Regional Offices directly determined the occupations in demand.
                                  Further, the OIG found that the criteria for defining a center's
                                  geographic area varied among Center Directors from not defining
                                  the area to limiting the area to the local community in which the center
                                  is located.

                                  As part of our employment verification with both the initial placement
                                  employers and subsequent employers of the students in our sample,
                                  we asked if the training provided was adequate and what additional
                                  training Job Corps should have provided. Of the 315 employerswho
                                  responded, 205 (65 percent) stated that the training provided by Job
                                  Corps was adequate. However, about 100 employers provided
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   written comments, of which 95% were critical of the training provided
                                   by Job Corps.

                                   At 17 of the 18 centers audited, we attempted to survey the 3 major
                                   employers in each of 3 of the largest geographic areas to which most
                                   students returned after termination from Job Corps. The purpose of
                                   the survey was to determine if the vocations taught at the center were
                                   representative of the entry-level positions of the employer. We
                                   successfully contacted 88 employers. Our review disclosed that
                                   most of the employers contacted indicated that they could use Job
                                   Corps students from at least one of the vocations taught at the center.

Recommendations                    Based on the audit results and conclusions, the OIG recommended
                                   that the Assistant Secretary for Employment and Training:

                                   1. Provide Job Corps access towage data maintained by states as
                                      a tool to measure Job Corps student achievements;

                                   2. Instruct the Director of the Job Corps Program to routinely
                                      measure and document the long-term outcomes of Job Corps
                                      students;

                                   3. Instruct the Director of the Job Corps Program to test the
                                      feasibility of refining vocational training; and

                                   4. Instruct the Job Corps Director to test the feasibility of better
                                      addressing employers' needs for skilled workers.

                                   (ReportNo.05-95-009-03-370;
                                                            issuedSeptember29,1995)


Reviews of Job Corps               During this period, we completed two reviews of the Student Pay,
Student Information                Allotment and Management Information System (SPAMIS) used by
System                             the Job Corps program to process student payroll. The reviews
                                   covered the period November 1,1992 through September 30, 1993,
                                   the first 11 months of SPAMIS' operations.

                                   The purpose of our reviews was to determine if adequate internal
                                   controls were established over the processing and payment of
                                   student allowances and bonuses. SPAMIS is used to pay students
                                   biweekly living allowances which are calculated based on student
                                   attendance information fed into SPAMIS by the Job Corps centers.




                                                    6
Semiannual Report to the Congress                                                     April 1 - September 30, 1995




                                    SPAMIS is also used to process final readjustment allowances and
                                    student bonuses.

                                    We found that SPAMIS is not a general ledger accounting system
                                    and, as such, does not generate the financial information necessary
                                    to provide a complete accounting for the approximately $70 million in
                                    funds transferred from DOL for student payroll each year. We also
                                    found internal controls over student payroll were inadequate. We
                                    concluded that the internal controls at the SPAMIS data center and at
                                    the Job Corps centers did not provide reasonable assurance that the
                                    payroll system provides complete and reliable financial information
                                    or that material errors and irregularities are detected and corrected
                                    on a timely basis.

                                    Job Corps acknowledged the need for improved controls and has
                                    made appropriate changes to their systems and operating
                                    procedures, including purchasing an automated general ledger
                                    system. While Job Corps agreed with many of our recommenda-
                                    tions, other recommendations remain unresolved.

                                    We also conducted a review of the student biweekly payroll fund
                                    process at the Civilian Conservation Centers (CCCs). CCCs are
                                    Job Corps centers which are operated by the Federal Departments
                                    of Interior and Agriculture. We identified internal control deficiencies
                                    that could place a portion of the Job Corps student payroll at
                                    unnecessary risk.

                                    The current practice of providing a large cash balance (up to $65,000
                                    per center) results in approximately $1.1 million being maintained in
                                    safes at the CCCs rather than in interest-bearing accounts. CCCs
                                    are collectively maintaining $923,013 in excess of the biweekly
                                    amount needed for student payrolls and advances. Using an annual
                                    effective interest rate of 5 percent, the amount of lost interest revenue
                                    would be $46,151 per year.

                                    We recommended that the Assistant Secretary for Employment and
                                    Training instruct the Office of Job Corps to: establish depository
                                    bank accounts to maintain biweekly student payroll funds; instruct the
                                    SPAMIS Data Center to include the 30 CCCs in their biweekly
                                    transfer; direct the CCC imprest fund cashiers to reduce the amount
                                    of the fund; and obtain reimbursement from the Data Center. The
                                    Office of Job Corps and the Departments of Agriculture and Interior
                                    have agreed to establish depository accounts for these funds.
SemiannualReport to the Congress                                                                   April 1 -September 30, 1995




                                   We also identified a problem with placement and job match bonuses,
                                   a new system implemented in November 1992. Job Corps students
                                   can receive a placement bonus of either $250 or $350, depending on
                                   the type of placement. SPAMIS is designed to automatically
                                   generate a student placement bonus check once the placement
                                   contractor or Job Corps Center inputs a placement into the system.
                                   Job Corps routinely verifies a 10 percent sample of all placements.

                                   We identified invalid placement and job match bonuses of $31,400
                                   paid to 114 students for PY 1993 and $15,900 to 78 students for the
                                   first three quarters of PY 1994. Moreover, in addition to the invalid
                                   payments made to students, we believe that Job Corps isoverpaying
                                   placement contractors and overstating the placement performance
                                   measure as a result of the invalid placements.

                                   We recommended that the Assistant Secretary for Employment and
                                   Training instruct the Office of Job Corps to: redesign the placement
                                   verification sample and project invalid placements and unallowable
                                   costs to the universe of placements; adjust performance ratings to
                                   reflect the projected invalid placement rates; require placement
                                   contractors and centerswith placement contracts to reimburse Job
                                   Corps for placements and job match bonuses paid to students whose
                                   placements are subsequently found to be invalid; and enhance the
                                   internal controls over placement verification by requiring students to
                                   submit their pay stub as proof of employment.

                                   The Office of Job Corps is studying this recommendation. (Report Nos.
                                   12-95-012-03-370;       issued   April   24,   1995,   and   03-95-016-03-370;     issued
                                   September29,    1995)




Job Corps Effective                At the Office of,Job Corps' request, we conducted a special audit to
in Implementing                    determine if the recently expanded policy of zero tolerance for
Zero Tolerance for                 violence and drugs at Job Corps centers had been effectively
Violence and Drugs                 implemented. The expanded policy, effective May 1, 1995, was
Policy                             instituted in response to congressional oversight hearings last year
                                   which revealed unacceptable levels of violence and drug abuse at
                                   Job Corps centers. Our audit work was performed at a statistical
                                   sample of 8 Job Corps centers and included interviews with 112
                                   statistically selected students.

                                   Based on our audit, we concluded the Office of Job Corps had
                                   effectively implemented the new policy at the eight Job Corps centers
SemiannualReporttothe Congress                                                   April1 - September30, 1995




                                 we visited. The great majority -- 93 percent -- of the students we
                                 interviewed stated they felt safe on center; 61 percent reported they
                                 felt safer than they had before the strengthened policy was put in
                                 effect. Also, according to data recorded in Job Corps' management
                                 information system by the eight sample centers, 25 percent of their
                                 total terminations in May 1995 were as a result of the new zero
                                 tolerance policy.

                                 We made no recommendations regarding the new policy. (ReportNo.
                                 12-95-013-03-370;   issued June 15, 1995)




OIG Produces First               Just as a picture is worth a thousand words, a moving picture is
Video Audit Report:              invaluable in telling a story or illustrating a condition. Using this
Job Corps Can Work!              philosophy, the OIG produced its first-ever video audit report to
                                 pictorialize the life of Job Corps students while on center. The video
                                 audit report is a compilation of footage recorded at 17 Job Corps
                                 centers during audit field work.

                                 The video answers the following questions by giving examples from
                                 the 17 centers:

                                 What are the physical conditions of the centers?

                                 What is the quality of training?

                                 What is the overall center environment?

                                 Although the video focuses on 17 locations, the OIG believes it
                                 presents an overall picture of the nation's Job Corps centers. (Report
                                 No. 05-95-007-03-370;   issued May 26, 1995)




THE MIGRANT AND                  The Migrant and Seasonal Farmworker Program is authorized under
SEASONAL                         JTPATitle IV. The main purpose of the program isto provide training,
FARMWORKERS                      education, and employment assistance to migrant and seasonal
PROGRAM                          farmworkers.



Audit of the Central             The Central Valley Opportunity Center (CVOC) is a nonprofit
Valley Opportunity               corporation which offers JTPA employability services to migrant and
Center                           seasonal farmworkers in three California counties. The OIG audited
                                 the direct and indirect costs claimed by CVOC for Program Years
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   (PYs) 1992 and 1993 (July 1, 1992 to June 30, 1994). In addition, the
                                   OIG reviewed CVOC's success in training eligible individuals and
                                   placing them in full-time employment.

                                   For the period audited, CVOC reported direct and indirect program
                                   expenditures of $2,251,398 to the Department. The OIG questioned
                                   $215,005 of direct expenditures and $79,585 of indirect
                                   expenditures, for total questioned costs of $294,590, because the
                                   CVOC: (1) exceeded its PY 1991 grant budget and inappropriately
                                   shifted expenditures of $39,200 from its PY 1991 grant to its PY 1992
                                   grant; (2) earned JTPA program income of $44,600, yet failed to
                                   credit the program for this amount; (3) inappropriately claimed
                                   $29,601 of depreciation expenses for property which was leased;
                                   and (4) allocated program costs of $48,300 in contravention of its
                                   own cost allocation plan. The OIG questioned an additional
                                   $132,889 for other reasons.

                                   All costs in the indirect cost pool were allowable; however, the
                                   allocation base (total direct costs) was understated because CVOC
                                   failed to include; allowable direct costs of unrestricted funds in the
                                   base. The OIG adjusted the allocation base and developed "audit-
                                   recommended" indirect cost rates for Fiscal Years 1993 and 1994.
                                   Applying the audit-reoommended rates to the adjusted allocation
                                   base resulted in questioned indirect costs of $79,585.

                                   For PYs 1992 and 1993 combined, CVOC placed only 25 percent of
                                   the participants who were enrolled in classroom training into training-
                                   related jobs. For PY 1992, of 172 individuals receiving classroom
                                   training, 31 were placed and employed more than 90 days in training-
                                   related employment. The average cost per placement in this
                                   category was $:23,500.

                                   The CVOC did not take exception to $132,973 of the costs
                                   questioned by the OIG. While CVOC generally concurred with the
                                   concepts associated 'with the remaining findings, it stated that
                                   additional work needed to be accomplished to substantiate the
                                   allowability of the remaining questioned costs. CVOC complained
                                   that OIG's performance audit focused on training-related
                                   placements, which is not a JTPA402 performance standard. CVOC
                                   agreed, however, it must do a better job of training and placing
                                   individuals in the target population. (ReportNo.18-95-014-07-735;
                                                                                                  issued
                                   July 20, 1995)




                                                    10
SemiannualReport to the Congress                                                   April 1 - September 30, 1995




Audit of Americas                  ETA awarded a contract to the U.S. Small Business Administration
Corporation                        (SBA) to improve the quality of JTPA programs through the provision
                                   of technical assistance and training (TAT). The SBA subcontracted
                                   with Americas Corporation (Americas) on July 1, 1992, to provide
                                   TAT to Migrant and Seasonal Farmworker grantees through national
                                   workshops. The subcontract for $300,000 was subsequently
                                   modified to: (1) provide TAT to Indian and Native American program
                                   grantees, (2) extend the original June 30, 1993 end date to June 30,
                                   1995, and (3)increase the funding level to $1,256,997.

                                   At the request of ETA, the OIG audited the direct costs claimed by
                                   Americas for the period July 1,1992 through September 30, 1994,
                                   which resulted in $93,043 of questioned costs. This amount
                                   represented 11.7 percent of all program funds expended. Costs
                                   were questioned because they were unallowable, unsupported,
                                   unreasonable, inequitably allocated or claimed twice. The OIG also
                                   found that Americas' accounting system did not maintain accurate,
                                   current and complete financial data. This made it virtually impossible
                                   for Americas to provide the required assurances that costs invoiced
                                   to DOL were allowable program expenditures.

                                   Shortly after audit work began, the ETA Contracting Officer issued a
                                   Stop Work Orderwhich directed Americas to stop performance of all
                                   work for 90 days. In December 1994, the Contracting Officer issued
                                   a Cure Notice providing Americas 60 days to correct the deficiencies
                                   identified by the auditors. In May 1995, based on the OIG's finding
                                   that Americas had failed to provide fiscal integrity under the
                                   subcontract, the Contracting Officer sent a Notice of Termination to
                                   Americas.

                                   In responding to the audit report, Americas contended that about two-
                                   thirds of the questioned costs are allowable but did not provide any
                                   documentation to support these questioned costs. (ReportNo.18-95-
                                   015-03-365;   issued July 18, 1995)




NATIVE AM ERICAN                   JTPA Title IV also authorizes employment and training programs for
PROGRAMS                           Native Americans.

Nebraska Indian                    The Nebraska Indian Inter-Tribal Development Corporation
Inter-Tribal Development           (NIITDC), located in Winnebago, Nebraska, is a consortium offour
Corporation                        Indian tribes established for the purpose of administering and
                                   operating employment and training programs under JTPA. In



                                                        11
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   addition to this function, the NIITDC also served as the JTPA Native
                                   American Program grantee for non-reservation areas in Iowa and
                                   Nebraska. The OIG performed a financial and performance audit of
                                   the NIITDC JTPA operations for the period July 1, 1992 through
                                   September 30, 1994. During this period, the NIITDC administered
                                   Title IV-A (Section 401 Indian Program) and Title II-B (Summer Youth
                                   Program) grants awarded by the Employment and Training
                                   Administration.

                                   The OIG audit questioned $279,568 in JTPA expenditures. Further,
                                   the OIG concluded the NIITDC was experiencing serious financial
                                   problems. In addition to the costs questioned in the current audit, the
                                   financial difficulties facing NIITDC were: (1) an ETA management
                                   decision which disallowed 100 percent ($607,354) of questioned
                                   costs from a prior OIG audit, and which the NIITDC appealed to the
                                   Office of Administrative Law Judges; (2) a deficit in the indirect cost
                                   pool of $273,687 as of August 31, 1994; and (3) drawdowns of JTPA
                                   funds which were not used for the JTPA program, resulting in over
                                   $340,000 of the costs questioned in the current and prior OIG audit
                                   reports. Although the NIITDC has obtained a line of credit and has
                                   developed a deficit reduction plan, many of the plan's factors are
                                   beyond its control and it is questionable whether the NIITDC will be
                                   able to continue as a going concern.

                                   The majority of the questioned costs in this report resulted from
                                   excessive cash drawdowns and related interest which were used to
                                   pay expenses unrelated tothe JTPA programs. The OIG also found
                                   that the NIITDC did not use itsfinancial accounting system to manage
                                   its financial affairs and that the JTPA Program Status Reports were
                                   mathematically incorrect and not supported by participant records.
                                   As a result, the (DIGissued a Disclaimer of Opinion on the program
                                   statistics for the period of the audit.

                                   The NIITDC has developed and implemented a financial
                                   management plan designed to allow it to recover from the budget
                                   deficit described in the (DIGaudit report. Itagreed with the other OIG
                                   findings and submitted additional documentation to support certain
                                   questioned costs, which the OIG accepted. (Report No. 18-95-022-03-
                                   355;issuedSeptember12,1995)


JTPA TITLE II                      JTPATitle IIauthorizes employment and training services for eligible
                                   youth and adults through grants administered by the states.



                                                    12
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




Audit of the Nashville              The OIG performed a limited scope audit of the Metropolitan
JTPA Program                        Government of Nashville and Davidson County - Mayor's
                                    Employment and Training Resources Agency (METRA). METRA
                                    administers JTPA program funds provided by the U.S. Department
                                    of Labor and passed to METRAthrough the State of Tennessee. The
                                    audit included JTPA program activities that occurred during the
                                    period July 1, 1993 to June 30, 1995.

                                    The OIG questioned $299,771 in JTPA expenditures, by both
                                    METRA and its contractors, that were not in compliance with Federal
                                    or State requirements. Specifically, METRA:

                                    •   paid Community Services Unlimited, Inc., $22,362 for computer
                                        training which was not provided to JTPA participants;

                                    •   paid Focus, Inc., $12,914 to train JTPA participants, although
                                        none were enrolled in the program;

                                    •   paid $236,693 to PENCIL Foundation and the Opportunities
                                        Industrialization Center (OIC), which trained only a small fraction
                                        of the participants the funds were intended to serve; and

                                    •   charged $27,802 in administrative costs to the JTPA Title II-B
                                        Summer Youth Program in excess of the administrative cost
                                        limitations established by the JTPA and METRA's contract with
                                        the State of Tennessee.

                                    The majority of the questioned costs resulted from METRA's failure
                                    to recruit adequate numbers of participants into the JTPA program.
                                    METRA retained responsibility for enrolling JTPA participants.

                                    METRA referred far fewer participants to some contractors than was
                                    planned when the contracts were negotiated. The costs contractors
                                    charged for serving a much smaller number of participants did not
                                    vary significantly from the costs budgeted based on a much larger
                                    number. However, METRA took no action to either modify or
                                    terminate the contracts.

                                    To illustrate, only 17 percent of the planned participants were served
                                    in the PENCIL and O ICcontracts which we have questioned. Yet, 91
                                    percent of the budgeted funds were spent by the contractors.




                                                     13
SemiannualReport to the Congress                                                           Apri_ 1 - September 30, 1995




                                   As a result, the average cost of serving each participant increased
                                   unnecessarily and individuals who could have received assistance,
                                   at little additional cost, were denied help. Consequently, JTPAfunds
                                   were wasted.

                                   METRA's problems were compounded by weaknesses in internal
                                   controls over its,operations and those of its contractors. We found
                                   that METRA:


                                   •   did not adequately monitor the activities of its contractors to
                                       ensure performance or expenditures conformed with the
                                       provisions of the contracts;

                                   •   overpaid its contractors and, after the contracts expired, modified
                                       contract provisions to allow the costs; and

                                   •   overspent its administrative allowance and attempted to
                                       circumvent past years' JTPA administrative cost limitations by
                                       transferring excessive administrative costs to a current contract.

                                   Recently, METRA's management has implemented changes in its
                                   systems and procedures that should help prevent recurrence of many
                                   of the problems identified in our audit.     However, additional
                                   improvements are required.

                                   Consequently, we also recommended the Assistant Secretary for
                                   Employment and Training require that the Tennessee Department of
                                   Labor monitor METRA's activities to ensure Federal and State
                                   requirements are complied with, and that internal controls are
                                   implemented to prevent the identified problems from recurring.
                                   (Report No. 04-95-041-03-340;   issued September   28, 1995)




                                   The Older Americans Act of 1965 authorizes subsidized part-time
OLDER WORKER                       work opportunities in community service activities for unemployed
PROGRAMS                           low-income persons age 55 and over. Through grants and contracts
                                   administered by ETA, the Senior Community Service Employment
                                   Program (SCSEP) is intended to address unmet community needs
                                   by utilizing the skills of senior citizens.

Audit of the National              The National Council on the Aging, Inc. (NCOA) is a private nonprofit
Council on the Aging               advocacy organization which provides interested parties with
                                   training, technical assistance, research and publications on the



                                                       14
Semiannual Report to the Congress                                                     April 1 - September 30, 1995




                                    subject of aging. In addition, the NCOA is a National sponsor of the
                                    SCSEP administered by the Department of Labor (DOL). Over 90
                                    percent of NCOA's annual revenues came from Federal Government
                                    grants and contracts; the SCSEP grant program is, byfar, NCOA's
                                    single largest Federal program.

                                    Over the past several years, the Department has become
                                    increasingly concerned about the indirect cost rates proposed by the
                                    NCOA. Intwo previous OIG audit reports on this topic (Reports Nos.
                                    18-91-018-07-735 and 18-93-009-07-735 covering the period CYs
                                    1988 through 1990), the OIG questioned substantial costs charged
                                    to Federal grants; the DOL portion of these questioned costs is about
                                    $800,000.     Because of continuing concerns about NCOA's
                                    proposed indirect costs, the Department requested the OIG audit
                                    NCOA's proposed final indirect cost rates for CYs 1991 through
                                    1993.

                                    The serious problems reported in the two prior OIG audit reports had
                                    not been corrected. The current audit questioned costs totaling
                                    $1,539,978 ($1,115,016 in indirect costs, $379,377 in direct costs;
                                    and $45,585 in double and unsupported billings). Due to the reported
                                    findings, the OIG issued an adverse opinion on the indirect and direct
                                    costs for CYs 1991 through 1993.

                                    The questioned indirect costs resulted from audit adjustments to
                                    NCOA's proposed indirect cost pools and cost allocation bases.
                                    The single most significant "repeat finding" regards NCOA's
                                    continued charging of salary and fringe benefit costs to its indirect
                                    costs pools rather than as direct costs to its private projects and other
                                    activities ($878,278 questioned). The improper charging of salary
                                    and fringe benefit costs, in turn, resulted in excessive allocations in
                                    nonpersonnel costs to NCOA's indirect costs pools and, eventually,
                                    to DOL grants and contracts ($508,396 questioned). The OIG
                                    questioned additional indirect and direct costs because of
                                    unallowable or unsupported charges to the pool, improper direct
                                    charges to the Department, double billing of administrative costs and
                                    other reasons.

                                    While NCOA has moved aggressively to correct the problems
                                    identified by OIG, itwas not in agreementwith all of the OIG findings.
                                    The NCOA is, however, working with DOL to assure current
                                    difficulties are corrected and future problems and audit findings are
                                    minimized. (ReportNo.18-95-018-07-735;   issuedAugust18,1995)



                                                      15
Semiannual Report to the Congress                                                   April 1 - September 30, 1995




                                    The Bureau of Labor Statistics (BLS) is the principal fact-finding
BUREAU OF                           agency forthe Federal Government in thefield of laboreconomics.
LABOR           STATISTICS          BLS develops general purpose statistics for: use by labor, business
                                    and government entities in the development of economic and social
                                    policy; decision-making in the business and labor communities; the
                                    legislative proc._ess;the general administration of government
                                    programs; and other purposes.



Validation of Source Data           We reviewed two of the BLS programs that report employment and
Could Improve Reliability           wage data --the Current Employment Statistics (CES) and ES-202
of BLS and UlS                      programs. The CES program conducts a monthly survey of over
Employment Data                     400,000 business establishments covering 40 percent of the total
                                    employment. The ES-202 program serves as both the sampling
                                    frame and the benchmark source for the CES survey. ETA's
                                    Unemployment Insurance Service (U IS)funds the State Employment
                                    Security Agencies (SESAs) to provide BLS data on monthly
                                    employment counts from the 6.7 million employers subject to
                                    Unemployment Insurance laws.

                                    The CES program annually benchmarks its employment data to the
                                    employment counts in the quarterly ES-202 reports and the overall
                                    accuracy of the CES survey is gauged by the size of benchmark
                                    revisions. The 1991 CES benchmark revision was unusually large
                                    and, as a result, received considerable congressional and media
                                    attention. After extensive research by BLS into the cause of the large
                                    revision, BLS contracted with the American Statistical Association
                                    (ASA) to perform an independent review of their findings. The ASA
                                    panel issued their report concurring with the BLS research findings.
                                    BLS also requested the ASA panel to provide their recommenda-
                                    tions for a broad-based research agenda for both the CES and ES-
                                    202 programs.

                                    Our review included an evaluation of BLS' plans for addressing the
                                    recommendations made by the ASA report on improving the CES
                                    and ES-202. We also evaluated the procedures used to ensure the
                                    accuracy of the; CES and ES-202 data.

                                    We concluded that BLS is actively working on addressing the most
                                    significant issues identified in the ASA report and that the highest
                                    priority for the CES program should be the transition to a probability
                                    sample design. In June 1995, BLS announced its plans to initiate a
                                    major sample redesign for the CES survey; the plan calls for a 2-year



                                                     16
SemiannualReport to the Congress                                                      April 1 - September 30, 1995




                                   research period, followed by a phased-in implementation. However,
                                   until this conversion is implemented, the program will have to
                                   continue to address the periodic issues impacted by: (1) a sample
                                   which is not fully representative of the universe; (2) reliance on the use
                                   of a bias adjustment factor; and (3) the national versus sum-of-states
                                   employment differences. BLS also plans to expand the Response
                                   Analysis Survey, performed in nine states, to include an on-site
                                   records verification.

                                   We recommended that UIS, in cooperation with BLS, perform a study
                                   to validate the accuracy of employer-reported employment counts as
                                   part of the SESA field audits. If the results of the study identify
                                   significant employer reporting errors and the study is determined to
                                   be cost effective, this verification should be continued.

                                   However, UIS does not believe that expanding SESAfield audits is
                                   the most viable or cost effective approach. Since UlS is currently
                                   developing the upgrade to the SESA field audit procedures, we
                                   continue to recommend employment count validation procedures be
                                   implemented. We will work with UIS to develop these procedures.
                                   (ReportNo.03-95-015-11-001 ;issuedAugust28,1995)



                                   The Department of Labor is required by the Chief Financial Officers
FINANCIAL                          (CFO) Act to annually prepare and submit to OMB financial
                                   statements that present the overall financial position, results of
AND PERFORMANCE                    operations, cash flows, budget and actual expenses of the
REPORTI NG                         Department. The CFO Act also requires that the Department provide
UNDER         THE CFO ACT          an accurate and complete portrayal of the extent to which its
                                   legislative mandate is being achieved.      This portrayal of the
                                   Department's performance is presented in the Overview and
                                   Supplemental section of the Department's Annual Financial
                                   Statements. The OIG annually audits the financial statements and
                                   performance measures as presented by the Department.


                                   We previously reported that DOL had not fully implemented the CFO
STATUS OF                          Act due to the lack of a Chief Financial Officer and certain
IM PLEM ENTING                     organizational aspects of the Department's financial management.
THE CFO ACT                        We are pleased to note that the Department now has a CFO.
                                   Edmundo Gonzales was confirmed as the Department's first CFO on
                                   June 30, 1995. However, we continue to be concerned with the
                                   financial management organizational structure of the Department.



                                                     17
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




                                    The Department's current financial management organizational
                                    structure has not been approved by OMB. (It was submitted on
                                    October 16, 1994.) The current structure separates financial
                                    authorityfrom rnanagement responsibilities, which we believe is not
                                    in accordance with the;requirements of the CFO Act. As a result of
                                    this division, DOL's financial management is weakened. This
                                    weakness was reported in our FY 1994 report on the Department's
                                    Internal Control Structure. The then-Acting CFO concurred with our
                                    assessment. Flowever, DOL has not acted to change the division of
                                    financial responsibilities within the Department.

                                    Financial management functions of the five major agencies within
                                    DOL remain decentralized and under the direct control of the
                                    respective Assistant Secretaries rather than the CFO. Further, the
                                    financial management functions of the National Capital Service
                                    Center and the regional service centers (which perform accounting
                                    services for the smaller agencies as well as cross-cutting services for
                                    all agencies) are under the direct control of the Assistant Secretary
                                    for Administration and Management rather than the CFO.

                                    The CFO Act sets forth specific requirements for the establishment
                                    of the CFO. These requirements are designed to ensure that the
                                    CFO has the requisite authority to meet his/her responsibilities and
                                    to ensure that financial managers are sufficiently independent of
                                    program managers. These are necessary to ensure the integrity of
                                    financial data. The Act specifically requires that the CFO oversee al._.[
                                    financial management activities relating to the programs and
                                    operations of the agency. DOL's structure, which has not yet been
                                    approved by OMB, does not accomplish this.

                                    Although the current structure provides that the CFO is responsible
                                    for the development and promulgation of departmental accounting
                                    and financial policy, it does not provide the CFQ with control over the
                                    financial managers who are expected to implement these policies.
                                    The CFO can promulgate policy, but doesn't have the authority to
                                    enforce such policy.


                                    The Department's financial statements for FY 1994 reflect $34 billion
FY 1994 CONSOLIDATED                in expenses, of which approximately 86 percent are "pass through"
FINANCIAL STATEMENTS                funds, or funds actually expended by state or local government. Of the
                                    total, $21.6 billion was expended by the states for unemployment
                                    insurance benefit payments, and another $7.7 billion by state and



                                                     18
SemiannualReport to the Congress                                                   April 1 - September 30, 1995




                                   local governments that operate JTPA programs. The balance of the
                                   expenses were for benefit payments and services provided directly
                                   by the Department.

                                   Financial Statement Opinion. The OIG's report on the FY 1994
                                   financial statements contained a scope restriction related to the lack
                                   of audit assurance for tax revenues and related receivables for the
                                   Unemployment Trust Fund and Black Lung Disability Trust Fund. As
                                   a result, our opinion on the financial statements was qualified.
                                   However, this scope restriction is not a reflection on the Department
                                   of Labor. Management has worked diligently with both GAO and
                                   Treasury to ensure that the Department's funds are audited.

                                   Report on Compliance. The results of our tests for compliance did
                                   not disclose any material instance of noncompliance.

                                   Report on Internal Control Structure. In addition to the
                                   Department's financial management organizational structure
                                   (discussed above), we reported several other conditions in the
                                   internal control structure that warrant action, two of which were
                                   deemed to be material weaknesses. These weaknesses relate to
                                   the timely completion of the annual financial         report and the
                                   distribution of funding for the Emergency             Unemployment
                                   Compensation program.

                                   1) Improved Timeliness of Annual Report. Management stated
                                      that the discussion of the need for improved timeliness of the
                                      audited annual financial statement was not balanced and they did
                                      not respond to the specific recommendations. Progress was
                                      made with management in developing a financial statement
                                      preparation timeline that would better accommodate the March 1
                                      due date for the final audited statements. However, progress has
                                      not been made to modify bookkeeping practices during the
                                      fiscal year rather than relying on efforts to "clean up the books"
                                      subsequent to year end.

                                   2) Accounting for Emergency Unemployment Compensation
                                      (EUC) Program Funding. The legislation creating this $28
                                      billion program provided for portions of the program to be funded
                                      by appropriation and the balance by the Unemployment Trust
                                      Fund. Due to a lack of reporting by the states, DOL periodically
                                      estimated the amount of Appropriated funding ($17 billion).
                                      Stringent, and in two cases retroactive, time frames for program



                                                    19
SemiannualReport to the Congress                                                   April 1 - September 30, 1995




                                      implementation, c,ombined with numerous EUC legislative
                                      amendments, led to problems in state reporting. As a result, the
                                      Department did not obtain a final accounting from all the states to
                                      verify the periodic estimates.       Further, DOL decided that
                                      available reports would not result in a better estimate.
                                      Management did not respond to our recommendation to seek an
                                      opinion from GAO regarding the acceptability of using estimates
                                      in lieu of pursuing final accounting and reporting from the states.

                                   Other significant conditions include the prevention and detection of
                                   duplicate FECA payments and accounting for Federal Employees
                                   Unemployment Compensation.

                                   3) Duplicate FECA Payments. We identified 234 potential
                                      duplicate payments totalling $1.1 million. These were the result
                                      of controls being overridden. The Department acted promptly to
                                      investigate each of these potential duplicate payments and re-
                                      establish the controls designed to prevent future duplicates.

                                   4) Accounting for Federal Employees Unemployment Com-
                                      pensation., In previous audits of the Unemployment Trust Fund,
                                      recommendations related to the need for establishment of an
                                      accounting system for the Federal Employees Compensation
                                      (FEC) Account were made. In response, ETA developed certain
                                      subsidiary ledgers during FY 1993 to support the general ledger
                                      control accounts. During FY 1994, however, the accounting
                                      function was not sufficiently performed to sustain the
                                      improvements made in 1993. This adversely affected the
                                      completeness and integrity of the FEC Account books. Although
                                      management reiterated in itsresponse to our report that a system
                                      had been designed and was in place, management did not
                                      indicate how and by whom this system would be better
                                      maintained than itwas in FY 1994.

                                   Our report also provided the status of conditions noted in prior year
                                   reports on the internal control structure. Several key conditions and
                                   the status of resolution or corrective action follow.

                                   1) Accounts Payable and Undelivered Orders. Progress has
                                      been made to improve the accounting for accounts payable and
                                      undelivered orders. However, further improvements could be
                                      made to ensure that onlyvalid undelivered orders remain on the
                                      books, accounts payable are recorded timely in the proper



                                                   20
Semiannual Report to the Congress                                                  April 1 - September 30, 1995




                                       period, only valid accounts payable are recorded, and accounts
                                       payable are recorded in the proper amount.

                                    2) Black Lung Disability Trust Fund Accounts Receivable.
                                       Accounting controls for the Black Lung Disability Trust Fund's
                                       $89 million of accounts receivable continue to need improvement
                                       to ensure that accounts receivable records are maintained up-to-
                                       date and that all transactions are recorded in the proper amount.

                                    3) Wage and Hour's Civil Monetary Penalty and Backwage
                                       Accounts. The ESA has begun to design a system to improve
                                       the tracking of CivilMonetary Penalty assessments. Differences
                                       between the Backwage regional and national office systems still
                                       need to be reconciled and adjusted.

                                    4) Funds with U.S. Treasury. In our FY 1993 report, we identified
                                       that the Department recorded adjustments to bring its books into
                                       agreement with Treasury.        These adjustments were not
                                       supported by properly completed reconciliations ($3 million in
                                       FY 1994). Ifthe reconciliation process was complete and timely,
                                       the Department would have reasonable assurance of detecting
                                       transactions posted in error either by itself or Treasury. The
                                       Department has agreed that proper reconciliations will be
                                       performed in the future.

                                    5) Property and Equipment.        Our FY 1992 audit identified
                                       improvements needed in the Department's accounting for
                                       personal property and equipment. Although the Department has
                                       made various efforts to develop and improve property systems,
                                       it has been unable to implement a viable system. However, a
                                       more concerted effort is underway to complete corrective action.

                                    6) Accounting for Costs of Federal and State Unemployment
                                       Benefit Programs. ETA and the Officeof Chief Financial Officer
                                       (OCFO) continued their joint effort to complete a comprehensive
                                       accounting system to account for Federal and state
                                       unemployment benefit programs.

                                    7) Working Capital Fund Cost Allocations.             Management
                                       indicated it will implement a revised pricing strategy that will
                                         ensure costs are allocated based on the benefits derived by the
                                         users of the Working Capital Fund beginning in FY 1995.




                                                     21
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   8) Grant Accounting. Management stated they will issue a policy
                                      on minimum requirements on accounting for grants for all DOL
                                      agencies. For FY 1994, the refinement of accrued costs for ETA
                                      grants and reclassification of grant-related receivables and
                                      payables was performed at year end. We have recommended to
                                      the Department that these items be incorporated into the
                                      Department's routine accounting rather than at year end for
                                      financial statement purposes only, (Report No. 12-95-004-07-001;
                                      issuedJune15,1995)



                                   The OIG audited the performance measures reported in the
AUDIT OF FY 1994                   Department's Consolidated Fiscal Year 1994 Financial Statements
PERFORMANCE                        for: ETA's Employment and Training and Unemployment Insurance
MEASURES                           programs; ESA's Wage and Hour Division, Office of Workers'
                                   Compensation Programs, and Office of Federal Contract
                                   Compliance Programs; OAW's Office of Labor-Management
                                   Standards; OSHA; MSHA; PWBA; and BLS. The major objective of
                                   the audits was to answer the question of whether the reported
                                   performance measure information present fairly the Department's
                                   performance. We identified the need to improve reporting of
                                   performance measures in four areas:

                                   1) New measures. BLS currently does not report measures that
                                      reflect the accurac,y of data related to monthly and annual price
                                      changes reported by the Consumer Price Index program. CPI
                                      program managers have suggested using sample variance
                                      measures similar to those adopted for other BLS programs.
                                      Such measures would increase the users' confidence that the
                                      data reported for this program is reasonably accurate.

                                      The Unemployment Insurance program currently does not have a
                                      measure on initial claims accuracy. The accuracy of initial claims
                                      is critical to assure that those entitled to benefits receive them
                                      timely. Based on UI program statistical data, initial denials
                                      represent 26 to 30 percent of all initial claims. As a result, the UI
                                      service is designing a pilot project to test the best means for
                                      assessing the accuracy of denial decisions.

                                   2) Improvements needed in presentation of some measures.
                                      The title and description of PWBA's performance measure on
                                      Advisory Opinions and Information do not fully describe all data
                                      reported for the measure. As a result, the measure appeared to
                                      be overstated by 22 percent.


                                                    22
Semiannual Report to the Congress                                                   April 1 - September 30, 1995




                                       MSHA's fatality and injury rates measure lacks complete
                                       disclosure. The footnote should disclose that reported statistics
                                       are compiled from mostly unaudited reports submitted by the
                                       mine operators and contractors. Also, the footnote should explain
                                       why the calculation of incidence rates uses 200,000 hours.

                                    3) Inadequate documentation. The Longshore Program does
                                       not maintain a record of detailed cases which are included in the
                                       monthly summary report for the timeliness measures. The case
                                       management system is continuously updated and data needed to
                                       verify timeliness measures is not maintained on the system.

                                       Supporting documentation is inadequate for MSHA's measure
                                       on mines not in compliance with dust standards.       The
                                       documentation consisted of over 4,000 pages of information
                                       without any summary data.

                                       There is no system in place to assure the accuracy of Ul's
                                       baseline measure of benefits paid. The amounts reported as
                                       benefits paid were $120 million more than the benefits reported
                                       on the UI Financial Transaction Summary report which was
                                       reconciled to the FY 1994 financial statements. Management
                                       corrective action plans include a data validation program that will
                                       include the ETA5159 Report, which isthe basis for the baseline
                                       measure reported.

                                    4) Data collection       issues.    PWBA's measure on benefit
                                       recoveries is valued inconsistently. Field offices report the value
                                       of a single month's benefit increase, whereas the National Office
                                       reports the same benefit accumulated over the next 15 years.
                                       PWBA National and field offices reported inconsistent data for
                                       the performance measure on inquiries answered. Automated
                                       telephone messages were included by the National Office but not
                                       by the field offices.

                                       MSHA's reported statistics did not include a significant number
                                       of reports from mine operators and contractors that were not
                                       processed prior to reporting final fatality and injury statistics.
                                       MSHA computed the percentage of field equipment audits in
                                       which defects were found using an incorrect formula. Thus, the
                                       measure was overstated by 82 percent (26.8 percent versus 14.7
                                       percent). MSHA corrected the FY 1994 rate and restated the FY
                                       1990 - FY 1993 rates in the final FY 1994 financial statements.



                                                     23
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   An audit recommendation is resolved when the Departmental
AUDn'F       RESOLUTION            funding agencyand the OIG agree on the action that will correct the
                                   problem or deficiency that produced the recommendation. An audit
                                   recommendation is considered closed when all actions agreed to by
                                   management to correc,t a problem have been completed.



                                   In passing the Administrative Dispute Resolution Act (the Act), the
ETA'S USE OF ADR                   Congress provided a method for parties to disputes involving
IN AUDIT RESOLUTION                Federal administrative proceedings, to informally resolve their
                                   differences short of entering a more formal resolution process.
                                   Alternative Dispute Resolution (ADR) is the process in which the
                                   parties to a dispute call upon the services of a neutral third party to
                                   assist them in reaching agreement. Although the Act expired on
                                   October 5, 1995, Congress is considering reauthorizing it.

                                   ETA is the only DOL agency to date which has used ADR to resolve
                                   OIG audit findings. The OIG believes ETA has taken a constructive
                                   step in its approach to the use of ADR. However, the initial results
                                   have been mixed in terms of the timeliness and content of
                                   agreements reached, as illustrated by the following examples.

Use of ADR in the                  ETA sometimes proposes that ADR be used after a formal appeal
Appeal Stage                       has been filed with the Department's Office of Administrative Law
                                   Judges (OALJ).

                                   The OIG's March 1991, June 1992 and July 1993, audit reports on the
                                   National Governors' Association (NGA) questioned grant funds for
                                   indirect costs expended by the NGAfor the years 1986 through 1991.
                                   In April 1994, ETA issued management decisions disallowing
                                   almost $82,000 of the questioned costs for DOL. There is an
                                   additional $430,000 of questioned costs involving other Federal
                                   agencies. NGA subsequently appealed the decisions to the OALJ.

                                   In February 1995, the parties agreed to utilize ADR in lieu of an OALJ
                                   hearing to settle the issues and costs disallowed by the Grant Officer.
                                   However, NGA withdrew from ADR in July 1995. Both parties are
                                   now preparing to bring the cases before the OALJ.

                                   It has been 4½ years since issuance of the first of these audit reports
                                   and 1½ years since ETA issued its management decisions on DOL's
                                   portions. DOL.has neither recovered the costs disallowed by ETA
                                   nor has an administrative hearing before the OALJ been held. In this



                                                    24
Semiannual Report to the Congress                                                        April 1 - September 30, 1995




                                        case, the offer of ADR in the administrative appeal stage did nothing
                                        to facilitate the timeliness or effectiveness of the audit resolution
                                        process.

Use of ADR in the                       OMB Circular A-50, the IG Act Amendments of 1988 and the recent
Informal Resolution             Stage   Federal Acquisition Streamlining Act require that management
                                        decisions be rendered within 6 months of OIG's issuance of audit
                                        reports. In some cases, ETA has initiated ADR before the final
                                        management decision is issued.

                                        The OIG's September 1991 audit report on the Opportunities
                                        Industrialization Centers of America, Inc. (OICA) questioned grant
                                        funds expended during the year ending June 30, 1990. ETA issued
                                        an initial management decision disallowing $398,021. In August
                                         1994, an OIG audit report for the period July 1990 through September
                                         1993, questioned $554,867 of OICA grant expenditures which
                                         impacted the Department. ETA issued an initial management
                                        decision on the latter audit report and, at the same time, proposed the
                                        use of ADR as a means to resolve the costs initially disallowed by
                                         ETA under both audits. In March 1995, the OICA accepted ETA's
                                        proposal to useADR mediation. Although ETA has informed the OIG
                                        that substantial progress has been made, the parties have not
                                         reached agreement as of September 30, 1995.

                                        The two OICA cases have now been in ADR for6 months. The OIG
                                        remains concerned, however, that it is now 4 years since the first OIG
                                        audit report was issued and it is still not resolved.

Successful        Use of ADR            The OIG issued audit reports in September 1991 and April 1993,
                                        questioning grant funds expended by the Santo Domingo Tribe. In
                                        March 1992, the ETA Grant Officer issued a management decision
                                        on the first report disallowing over $13,000 and, in September 1993,
                                        issued an initial decision on the second report disallowing $65,000.
                                        In October 1993, the grantee accepted ETA's offer to resolve the
                                        disallowed costs through the use of ADR. Mediation commenced in
                                        August 1994 and resulted in a Settlement Agreement.

                                        Inthis case ADR proved very successful and the grantee was able to
                                        demonstrate the allowability of all but $12,960 of the costs which were
                                        initially disallowed. Through the use of a mediator, the questioned
                                        costs were resolved in a timely manner and a potentially prolonged
                                        and expensive OALJ hearing process was avoided. The Tribe has
                                        agreed to refund $9,200 in settlement of the disallowance.



                                                         25
Semiannual Report to the Congress                                                     April 1 - September 30, 1995




                                    The OIG recognizes that the use of ADR in the audit resolution
                                    process is still being tested by ETA. However, we are concerned that
                                    the lack of built-in time_,constraints will in some cases negatively
                                    impact the timeliness of the agreements or decisions ultimately
                                    obtained through the process.


                                    The following narratives detail some of the most significant audit
SIGNIFICANT AUDIT                   resolution actions that occurred during this semiannual reporting
RESOLUTION                          period.

Secretary Rules                     In 1982 and 1983, the OIG issued four audit reports on the City of
on Long-Standing                    Detroit's CETA (Comprehensive Employment and Training Act)
City of Detroit Appeals             programs covering the period October 1977 to September 1980.
                                    The audits recommended $8.8 million be disallowed because of a
                                    lack of documentation for certain administrative costs charged by the
                                    City to the CE'rA program. In 1983, the DOL Grant Officer issued
                                    Final Determinations (management decisions) disallowing the $8.8
                                    million.

                                    The City appealed the Grant Officer's Determinations to the Office of
                                    Administrative Law Judges (OALJ). The OALJ consolidated the
                                    results of the four audits, plus six other pertinent OIG audits, into one
                                    case and, in October "1990,issued a Decision and Order requiring
                                    the City of Detroit to pay $3.4 mill ion to the Department of Labor. The
                                    City appealed this Decision and Order to the Secretary. Since 1990,
                                    the case has been pending review and final decision in the
                                    Secretary's Office of Administrative Appeals. On July31,1995, the
                                    Secretary issued a Final Decision and Order modifying the OALJ's
                                    decision by increasing the disallowed indirect costs by $1 million, for
                                    a total disallowance of costs of $4.4 million, and establishing a debt
                                    in that amount ()wed to DOL by the City of Detroit. On September27,
                                    1995, the City filed an appeal of the Secretary's Final Decision and
                                    Order with the U.S. Court of Appeals.

                                    The Federal Acquisition Streamlining Act of 1994 provides that the
                                    Government may assess interest from the time a Federal Agency
                                    issues a written demand for payment against a contractor. However,
                                    it is important to note that this provision of the Act does not apply to
                                    grants/grantees. Had the Government been authorized to assess
                                    interest from the datE; a written demand for payment was issued
                                    against the City of Detroit, the City would owe the Department in
                                    excess of $8 million in interest alone.



                                                     26
SemiannualReport to the Congress                                                     April 1 - September 30, 1995




                                   The OIG believes there is no real incentive for grantees who are
                                   disposed to delaying the resolution of monetary audit findings to
                                   move forward with resolution. We urge Congress to consider
                                   allowing Government agencies to charge grantees interest on
                                   disallowed costs, just as the Streamlining Act permits with respect to
                                   contractors.



$3 Million Settlement of           After lengthy litigation, the State of Kentucky recently entered into an
Kentucky Industrial                agreement with the Department to return $3 million to DOL in
Incentives JTPA Audit              settlement of almost $7 million in costs that were disallowed as a
                                   result of an OIG audit report.

                                   In March 1992, the OIG issued an audit report on JTPA funds spent
                                   by the Kentucky Cabinet for Human Resources to fund on-the-job-
                                   training (OJT) for workers hired by the Toyota Motor Company and
                                   the Budd Company. The OIG's report questioned $6,955,803 in
                                   JTPA funds Kentucky spent on the training.

                                   The OIG found no evidence of a bona fide JTPA program operating
                                   atthe two companies.        Both companies hired highly qualified
                                   workers; consequently, neither incurred "extraordinary training costs"
                                   nor experienced reduced production, which would have justified their
                                   receiving the funds. In fact, Toyota had made no commitment,
                                   contractually or otherwise, to train JTPA participants. Similarly, at
                                   Budd, eligibility for JTPA was not determined until after individuals
                                   had been hired.

                                   We concluded Kentucky improperly used JTPA funds to subsidize
                                   Toyota's and Budd's normal start-up costs rather than serve
                                   individuals in need of assistance. The funds helped defray the
                                   State's financial obligation which had resulted from incentive
                                   packages offered the companies to locate manufacturing plants in
                                   Kentucky.

                                   The ETA Grant Officer upheld OIG's findings in a Final Determination
                                   dated September 22, 1992, which Kentucky subsequently appealed
                                   to the Department's Office of Administrative Law Judges (OALJ).
                                   The issue was settled with Kentucky's June 15, 1995 agreement to
                                   repay $3 million, onwhich basis the OALJ dismissed the appeal on
                                   September 15, 1995. On September26, 1995, Kentucky remitted a
                                   check to DOL in the amount of $3 million, pursuant to the settlement
                                   agreement. (ReportNo.04-92-023-03-340;  issuedMarch26, 1992.)



                                                    27
Semiannual
        Reporttothe Congress                                                        April 1 - September30, 1995




ETA Disallows $4.5 Million     The OIG's March 31, 1994 audit report on the Alamo Consortium
in Alamo Consortium SDA        Service Delivery Area (SDA) in San Antonio, Texas, questioned
JTPA Program Costs             costs of $7,136,576. The OIG reported that the SDA did not
                               effectively use JTPA funds to provide quality training and services to
                               eligible participants and failed to properly administer the program.
                               The OIG found the SDA had spent significant funds on activities that
                               provided marginal, if any, benefit to participants. In addition to our
                               recommendation that these costs be disallowed, we recommended
                               that the SDA be designated a "high risk" recipient.

                               In its October 7, 1994, audit resolution plan, the Texas Department of
                               Commerce (the State JTPA administrative entity) notified ETA that
                               the State had designated the SDAas "high risk" and placed the SDA
                               under a conditional contract. However, it was not until July 7, 1995,
                               that the State officially notified the SDA of its "high risk" status.

                               On August 29, 1995, ETA issued its final determination disallowing
                               $4,529,306 and allowing $2,607,270. We have notified the grant
                               officer of our disagreement with $112,514 of the allowed costs. We
                               will workwith the grant officer to resolve our differences. (ReportNo.06-
                               94-002-03-340; issued March 31,1994)



$1.2 Million in Costs          Inour previous semiannual report, the OIG reported questioned costs
Disallowed for the             of $1,064,390 as a result of the audit of the California component of
California Human               CHDC operations. The OIG additionally recommended CHDC
Development Corporation        reimburse DOL $144,848 for imputed interest costs.             ETA's
                               management clecision disallowed all of the OIG questioned and
                               imputed interest costs totalling $1,209,238.

                               On September 1,1994, the CHDC filed for Chapter 11 bankruptcy in
                               the U.S. Bankruptcy Court for the Northern District of California.
                               (Report No. 18-95-008-03-365; issued March 1,1995)



Court Action Allows for        While the OIG's report on the East Texas Council of Governments
Resolution of East Texas       (ETCOG) has not yet been resolved, significant activity occurred
Council of Governments         during this semiannual period that warrants reporting.
SDA Audit
                               Our September 1992 audit report on ETCOG's JTPA program
                               questioned $5.8 million in profits, interest income, program income
                               and expenditures. The;report was high profile because $4.5 million
                               in profits and interest were earned by two non-profit organizations
                               that ran the program for the ETCOG SDA.


                                                 28
SemiannualReportto the Congress                                                     April 1 - September 30, 1995




                                  In September 1991, prior to issuance of our audit report, the two non-
                                  profit contractors filed a lawsuit in Federal District Court in Tyler,
                                  Texas, against the SDA and the Texas Department of Commerce
                                  (TDOC), the State JTPA administrative entity, seeking a declaratory
                                  judgment allowing them to keep all profits and interest earned while
                                  operating the JTPA program. The District Court ordered the plaintiff
                                  contractors to join the DOL as an indispensable party to the litigation.
                                  On May 26, 1993, the District Court ruled in favor of the plaintiffs,
                                  indicating neither USDOL nor TDOC could recover any of the profits
                                  nor interest from the subcontractors. Because of this decision, ETA
                                  suspended resolution action on this report pending ETA's appeal of
                                  the District Court decision, through the Department of Justice.

                                  On April 17, 1995, the Court of Appeals concluded that the District
                                  Court lacked jurisdiction to hear the subcontractors' and ETCOG's
                                  Federal law claims against the DOL, which amounted to pre-
                                  enforcement attacks on non-final agency action. The Court of
                                  Appeals vacated the District Court's decision and stated that both
                                  the State and DOL were free to pursue final agency action regarding
                                  whether subcontractors' costs and revenues were reasonable and
                                  necessary under ordinary agency standards and procedures. The
                                  Court of Appeals decision cleared the way for ETA to reinstitute audit
                                  resolution action on this audit. On May 15, 1995, ETA resumed the
                                  audit resolution process with the Texas Department of Commerce.
                                  (ReportNo.06-92-010-03-340; issuedSeptember25,1992)



Judgment Upheld;                  In the semiannual report for the period ending September 30, 1991,
An Additional $1.2 Million        the OIG reported on an audit of JTPA Title IV grants and a
Questioned forWAVE, Inc.          departmental contract awarded to the "70001 Training and
                                  Employment Institute." The Institute subsequently changed its name
                                  to "Work, Achievement, Values and Education, Inc.," or WAVE. On
                                  March 26, 1992, ETA issued a management decision which upheld
                                  OIG's findings and established a debt of $622,602.          WAVE
                                  appealed this decision to the Department's Office of Administrative
                                  Law Judges (OALJ). On December 7, 1993, the OALJ upheld the
                                  Grant Officer's management decision.

                                  WAVE appealed the ALJ's decision to the Secretary of Labor;
                                  however, the Secretary did not accept the case for review. WAVE
                                  then petitioned the U.S. Court of Appeals for review of the Secretary's
                                  decision. On November 28, 1994, the Court issued a judgment
                                  affirming the decision of the Secretary. On August 9, 1995, the



                                                   29
SemiannualReport to the Congress                                                            April 1 - September30, 1995




                                   Department and WAVE entered into an Installment Repayment
                                   Agreement in which WAVE committed to repay the Department
                                   $622,602. The Department agreed to accept payment of $350,000
                                   over a period of 5 years, after which time DOL would make a
                                   recommendation to the Department of Justice on the disposition of
                                   the remaining $272,602 owed by WAVE. WAVE made its first
                                   installment payment of $17,000 on September 5, 1995. (ReportNo.18-
                                   91-021-03-340;   issued Sept. 30, 1991)


                                   In the semiannual report for the period ending September 30, 1994,
                                   the O IG reportcd its audit of JTPA Title IV grants awarded to WAVE,
                                   Inc. (WAVE). Of the $4.8 million in costs claimed by WAVE for Fiscal
                                   Years 1990 through 1992, the OIG questioned $1.2 million, or about
                                   25 percent of the funds it received to operate job training programs
                                   foryouth. WAVE disagreed with all of the questioned costs. The ETA
                                   has issued its management decision and disallowed the entire
                                   $1,202,216 questioned by the OIG. (ReportNo.18-94-021-07-735;   issued
                                   September   27, 1994)




Resolution Actions on              In previous semiannual reports, the OIG reported our audits of the
Prior Audits of the                NCOA. ETA subsequently issued management decisions on the
National Council on the            costs questioned by OIG, disallowing a total of $796,224. In a revised
Aging                              management decision, ETA allowed $96,224 of this amount and
                                   established a debt due to the Department of $700,000. The NCOA
                                   appealed both ETA management decisions to the Department's
                                   Office of Administrative Law Judges.

                                   Recently, DOL and NCOA entered into a Settlement Agreement in
                                   which DOL stipulated that, "consistent with law and policy, it is in the
                                   best interest of the Government to accept the Grantee's offer of
                                   $400,000 in full satisfaction of the amount which remains disallowed
                                   and which is on appeal." The agreement established a payment
                                   schedule for NCOAto repay the $400,000. (ReportNos.18-91-018-07-
                                   735; issued July 19,1991,   and 18-93-009-07-735;   issued March 18, 1993)




United American Indians            In June 1993, the ETA Grant Officer issued a management decision
of the Delaware Valley             disallowing the entire $277,744 in costs questioned by the OIG. The
Enters into Settlement             grantee appealed the Grant Officer's decision to the Department's
Agreement                          Office of Administrative Law Judges.




                                                       3O
SemiannualReportto the Congress                                                   April 1 - September 30, 1995




                                  Based upon a review of the Grantee's financial condition, DOL
                                  determined there were insufficient non-Federal funds to pay the debt,
                                  either in one lump sum or in installments, within a reasonable time.
                                  Therefore, the Department determined it is in the best interest of the
                                  Government to enter into a Settlement Agreement in which the
                                  grantee agreed to pay $135,000 in full satisfaction of the $277,744
                                  under appeal. (ReportNo.18-93-002-03-355;  issuedDecember23,1992)



REVISED MANAGEMENT                No significant revised management decisions were reported to the
DECISIONS                         OIG by the Department this reporting period.




                                                   31
 Semiannual Report to the Congress                                                    April 1 - September 30, 1995




   OFFICE OF INVESTIGATIONS

 .....                               A primary responsibility within the mission of the OIG is to detect and
   OVERVIEW                          prevent fraud and abuse in Department of Labor programs and labor
                                     racketeering in theAmerican workplace. The Office of Investigations
                                     (OI) has made great strides toward meeting this responsibility. Our
                                     total investigative work hours were distributed approximately as
                                     follows: ERISA employee benefit plan investigations - 25 percent,
                                     Employment Standards Administration program investigations- 17
                                     percent, investigations of internal union affairs - 13 percent,
                                     Employment and Training Administration program investigations -
                                     10 percent, investigations involving labor-management relations - 10
                                     percent, DOL employee integrity investigations - 6 percent,
                                     unemployment insurance investigations - 6 percent, and all other
                                     categories of investigations - 13 percent. During this period, the
                                     Office of Investigations, opened 244 cases. OI investigations led to
                                     135 indictments, 168 convictions, and $14.6 million in monetary
                                     results.

                                     The number of indictments, convictions, and the total amount of
                                     monetary results generated from criminal investigations have
                                     traditionally been used by law enforcement agencies to measure
                                     success or performance. However, these statistics alone are not an
                                     effective measure of the total performance of an agency. In an
                                     attempt to address this dichotomy, the OIG has adopted an
                                     additional form of accomplishment reporting entitled, "Impact
                                     Statements." Impact statements attempt to describe the effect or
                                     impact that results because of an investigation, or series of
                                     investigations.

                                     The Office of Investigations consists of two components: the Division
                                     of Program Fraud and the Division of Labor Racketeering. The
                                     following section provides descriptions of investigative initiatives
                                     and case results for some of the more significant investigations
                                     accomplished by OI Special Agents.

........                             The Division of Prograrn Fraud (PF) is responsible for conducting
 DIVISION OF                         investigations into allegations of fraud, waste, and abuse in DOL
                                     programs and allegations of criminal activity by DOL employees.
 PROGRAM FRAUD                       During this reporting period, the PF has focused its resources on two
                                     major areas: meclical provider fraud in DOL-sponsored health care




                                                      32
SemiannualReportto the Congress                                                    April 1 - September30, 1995




                                  programs and employee integrity in the mine safety and health
                                  program.


                                  The PF has begun a nationwide task force designed to deter the
MEDICAL           PROVIDER        continuation offraud within health care programs administered by the
                                  Department. Health care fraud can be divided into two areas:
FRAUD                             medical provider fraud and claimant fraud. Fraud by health care
                                  providers annually costs the American taxpayer millions of dollars.
                                  Investigative successes by the OIG and other federal agencies have
                                  generated substantial congressional interest in the detection and
                                  prevention of health care fraud by individuals who are often
                                  considered by society to be its most highly educated and well-trained
                                  members-- and usually above suspicion.

                                  There has previously been no systematic investigative approach
                                  adopted by OIG in the area of medical provider fraud Several recent,
                                  regional investigations have demonstrated that there may be
                                  substantial problems related to health care providers in the Federal
                                  Employees' Compensation Program. A planned and coordinated
                                  taskforce approach designed to provide resources and guidance to
                                  all regions should result in greater impact within DOL and the health
                                  care provider field. This planned approach will also improve the
                                  knowledge, skills and abilities of Special Agents in this critical
                                  investigative area which is likely to remain a priority for the
                                  foreseeable future.

                                  Office of Workers' Compensation Programs (OWCP) charge-back
                                  reports show that from July 1994 through June 1995, OWCP paid out
                                  $1.8 billion in Federal Employees' Compensation Act (FECA)
                                  benefits. Of that amount, nearly $500 million was for medical care.
                                  While the DOL is charged with administering the program, the cost
                                  is ultimately borne by each Federal agency or department through a
                                  charge-back system. The OWCP Black Lung Program paid out
                                  $110 million in medical and diagnostic treatments last year.

                                  The importance of the new PF task force becomes clearer when one
                                  considers that in 1994 the Health Care Industry grossed over $900
                                  billion. According to the United States Department of Justice (DOJ),
                                  as much as 10 percent of each health care dollar, or approximately
                                  $90 billion, isthe result offraudulent claims or business practices. As
                                  noted above, DOL's OWCP paid over $600 million to health care
                                  providers on behalf of injured federal workers and miners with Black



                                                   33
SemiannualReport to the Congress                                                     April 1 - September 30, 1995




                                   Lung disease. Thus, using DOJ's estimate, fraud in OWCP
                                   programs may be as high as $60 million in 1994-95.

                                   The primary concept of this PF task force is the development of a
                                   more efficient, systematic approach to investigating medical
                                   provider fraud cases in order to ensure uniformity in approaches
                                   used and a sharing of information between those involved. Using this
                                   approach, Ol intends to refer at least 12 medical provider fraud cases
                                   to DOJ within the next year. Each investigation will be followed by a
                                   detailed report to the OWCP for their use in taking appropriate
                                   administrative action against the medical providers and others found
                                   to be defrauding the program. Also, any program weaknesses or
                                   administrative problems noted, or any legislative, regulatory, or
                                   procedural proposals needing the attention of Congress or DOL will
                                   be appropriately referred.

                                   The intended impact ofthistask force will be to: (1) reduce the growth
                                   in medical provider costs submitted to DOL, (2) reduce the number
                                   of fraudulent claims submitted by health care providers, (3) facilitate
                                   the passage of legislation orthe revision of regulations designed to
                                   reduce the cost of the health care programs administered by DOL, (4)
                                   debar medical providers who are convicted of submitting fraudulent
                                   claims to DOL, and (5) improve OI Special Agents' knowledge and
                                   skills in this critical investigative area in order to more efficiently
                                   conduct this type of inw)stigation in the future.

                                   Examples of significant medical provider investigations receiving
                                   attention during this reporting period are described below.

Rehab Specialist Indicted          Thomas Pavloski, an OWCP rehabilitative specialist who hid his
for Inflating Bills                active employment at a private rehabilitation clinic under contract to
                                   OWCP, was indicted for his part in a scheme to fraudulently inflate
                                   bills submitted to OWCP for rehabilitative service. Investigation
                                   disclosed that over a 2-year period, Pavloski, while employed by the
                                   clinic to prepare bills for treatment provided to FECA claimants,
                                   inflated these bills and received 60 percent of the proceeds from the
                                   inflated portions of the Mils, resulting in a theft in excess of $47,700.
                                   U.S.v.   Pavloski   (S.D. New York)


Neurologist Charged                A Kitsap County, Washington, neurologist, Dr. Sander E. Bergman,
in False Claims Scheme             was charged witlqfiling false claims with OWCP for office visits which
                                   never occurred and for neurological tests which were never
                                   conducted.



                                                         34
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   Prosecution of this case is noteworthy given that Bergman has been
                                   sentenced to prison for his conviction in 1993 for sexually assaulting
                                   female patients, during the same time period that he was defrauding
                                   the government. Bergman is appealing his assault conviction and
                                   had not yet commenced his sentence. Stateof Washington v. Bergman
                                   (Washington)

Cardiologist      Guilty           After a 5-weektrial, ajuryfound Dr. Dominic W. DiLeo, a Uniontown,
of Soliciting     Kickbacks        Pennsylvania cardiologist, guilty of violating federal kickback, mail
                                   fraud, and drug trafficking laws. An OI investigation (detailed in our
                                   October 1, 1993 - March 31, 1994 report), determined that over a
                                   nine-year period, Dr. DiLeo solicited and received kickbacks from
                                   Penn Medical Services, Inc., a Uniontown durable medical
                                   equipment company, in return for referring patients to it. Dr. DiLeo
                                   was also found guilty of illegally dispensing prescription drugs and
                                   creating false medical records to hide these actions. Dr. DiLeo was
                                   jailed pending his sentencing, u.s.v. DiLeo(W.D.Pennsylvania)

Doctor Sentenced to Jail           In furtherance of a joint investigation detailed in our April 1 -
for FalseBillings                  September 30, 1994, report, Dr. Earl M. Stenger, a Texas
                                   psychiatrist who specialized in pain management, was sentenced to
                                   21 months imprisonment, fined $50,000, and ordered to make
                                   $200,000 restitution. Imposition of the sentence came after Dr.
                                   Stenger entered a guilty plea to charges that he submitted false
                                   billings and medical reports to OWCP and private insurance
                                   companies for treatments allegedly provided to compensation
                                   claimants or for modalities of treatment which utilized equipment he
                                   did not have. u.s.v. Stenger(W.D.Texas)

                                   Impact: As a direct result of these types of investigations, PF has
                                   initiated a medical provider fraud task force project to
                                   systematically approach this developing health care problem. In
                                   addition, the OIG's Office of Audit has begun to review the impact of
                                   medical provider fraud on DOL. health care programs. The PF
                                   Division will be working closely with the Office of Audit m this effort.
                                   By concentrating more resources on medical provider cases, the
                                    OIG hopes to stem the loss of taxpayer money to fraud.




                                                    35
SemiannualReport to the Congress                                                     April 1 - September 30, 1995




                                   Providers, however, were not the only ones defrauding DOL's
CLAIMANT            FRAUD          compensation programs during this reporting period. Thefollowing
                                   are examples of the more significant claimant fraud cases receiving
                                   attention this period

THE FEDERAL                        The Federal Employees' Compensation Act (FECA) Program is a
EMPLOYEES'                         workers' compensation program that provides medical benefits and
COMPENSATION              ACT      disability compensation to Federal employees who are injured. The
PROGRAM                            Department of/.abor's Office of Workers' Compensation Programs
                                   is responsible for the program's administration for all Federal
                                   agencies.

Former Letter Carrier              Rufus L. Tartaglia, a former Utica, New York letter carrier who was
Sentenced in                       found guilty in connection with his scheme to defraud the FECA
FECA Fraud Scheme                  program, was sentenced to 6 months home detention, 5 years
                                   probation, and ordered to make restitution in the amount of
                                   $112,247. Investigation disclosed that Tartaglia failed to report
                                   earnings he received as the owner/operator of a floor covering
                                   businesswhile also receiving FECA benefits. Using the provisions
                                   of the FECA amendments enacted in 1994, OWCP terminated
                                   Tartaglia's FECA benefits upon his conviction, u.s.v. Tartaglia (N.D.
                                   NewYork)

Former Fire Fighter                A joint investigation with the U.S. Army's Criminal Investigation
Sentenced for                      Division culminated with the sentencing of James P. Hajacos, a
Concealing Income                  former civilian fire fighter at Fort Lee, Virginia. Hajacos was
                                   sentenced to 10 months incarceration, of which 5 months was to be
                                   served in home detention, 100 hours community service, 3 years
                                   supervised probation, and payment of a $50 special assessment. In
                                   addition to the criminal charges, a civil judgement was entered
                                   against Hajacos, in which he was ordered to pay $205,290. The
                                   investigation determined that he had been operating an antique
                                   business and maintaining rental property, while concealing these
                                   facts and income from C)WCP. The Army has described this case as
                                   a major accomplishment and the largest recovery recorded since the
                                   Army made FE('A fraud a priority, u.s.v. Hajacos (E.D. Virginia)

Former IRS Agent                   As part of a stipulated settlement agreement, Bernard V. Donahue,
Repays Over $251,000               a former Revenue Agent for the Internal Revenue Service (IRS),
                                   presented a cashier's check in the amount of $251,064.03 to the
                                   Department of Justice. The payment represents the FECA funds
                                   Donahue had fraudulently obtained over a period of 7 years. This
                                   settlement was the result of an investigation conducted jointly with the



                                                    36
Semiannual Report to the Congress                                                   April 1 - September 30, 1995




                                    IRS which determined that Donahue had been employed as a
                                    consultant to, and served on, the board of directors for an Ohio
                                    railroad company, receiving income in excess of $660,000 which he
                                    failed to report to OWCP. u.s.v. Donahue (D. Minnesota)

                                    Impact:     These cases serve to illustrate that the FECA program
                                    remains vulnerable to those individuals who would take advantage
                                    of this compensation system. Long-term FECA recipients often
                                    receive hundreds of thousands of dollars while on the rolls, and the
                                    benefit level offers little incentive to return to the workplace.
                                    Investigations and successful prosecutions of those who would
                                    defraud the program, serve as an effective deterrent to future
                                    dishonesty. In the previous Congressional session, the FECA
                                    statute was amended to allow for the immediate termination of
                                    benefits of claimants convicted of defrauding the FECA program.
                                     To date, the Government has realized a savings of over $932,700
                                    through their ability to terminate such benefits. Future successful
                                    PF investigations will serve to further save Federal money.



THE BLACK LUNG                      During this reporting period, four separate instances of individuals
PROGRAM                             whofraudulently obtained Black Lung (BL) benefits were successfully
                                    investigated. In three instances, the child of a miner's surviving
                                    spouse failed to report the death of the spouse and then falsified BL
                                    forms in order to continue receiving BL survivor benefits. In another
                                    case a deceased miner's spouse failed to report her remarriage.
                                    These four criminal acts defrauded the BL program of over
                                    $252,000.

                                    Impact:      These cases illustrate a potential weakness in the BL
                                    survivor benefit program. OIG will work with BL management
                                    officials to determine whether systems can be improved beyond the
                                    current death-roll computer match conducted by OWCP which led
                                    to the discovery of these cases. Detecting this criminal conduct at
                                    an earlier stage will reduce future such losses to the program.


                                    The OIG continues       to devote substantial      resources       to the
EMPLOYEE                            investigation of corrupt DOL employees and others who fail to
                                    properly exercise their official responsibilities in exchange for
INTEGRITY                           personal gain. Particular attention has been directed to alleged
                                    corruption by Mine Safety and Health Inspectors.




                                                    37
Semiannual Report to the Congress                                                     April 1 - September 30, 1995




MINE SAFETY                         The Mine Safety and Health Administration (MSHA) is responsible
AND HEALTH                          for ensuring health and safety in all of the Nation's mines. MSHA
                                    develops and promulgates safety and health standards, ensures
                                    compliance with such standards, assesses civil penalties for
                                    violations, and investigates mine accidents.

                                    Most of our investigations focused on inspectors in Kentucky and
                                    West Virginia and involved allegations that inspectors extorted mine
                                    owners or accepted money or other items of value in exchange for not
                                    properly performing their official inspection duties. Examples of
                                    these cases follow.

MSHA Compliance                     Eugene Holt, a former MSHA Civil Penalty Compliance Specialist in
Specialist Pleads Guilty            Pikeville, Kentucky, pied guilty to three felony charges of accepting
                                    money from the owner of a Pike County coal company. Holt was
                                    responsible for collecting delinquent civil monetary penalties from
                                    coal operators, which had been assessed by MSHA for safety and
                                    health violations. Holt admitted to receiving payments from coal mine
                                    operators in return for assessing lower civil monetary penalties on the
                                    companies than were actually required. He admitted to accepting
                                    payments of $500 in May and November 1990, and accepting a
                                    payment of $1,000 in March 1994. In addition, Holt further admitted
                                    to agreeing to accept an additional $2,000 from the same mine
                                    operator in return for future reductions in penalties. Holt is the sixth
                                    Pike County MSHA employee to be indicted and convicted of
                                    corruption charges in the last year. With this guilty plea, Holt faces a
                                    maximum penalty of 45 years imprisonment and a fine up to
                                    $775,000. u.s. v. Holt(E.D. Kentucky)

Mine Inspector Sentenced            Gary McClanahan, a 19-year career MSHA mine inspector, pied
for False Statements                guilty to making false statements on mine inspection reports and has
on Mine Reports                     been sentenced to 2 years probation, 30 days in a half-way house,
                                    fined $500, and ordered to serve 100 hours of community service.
                                    McClanahan reported in official records that he had inspected a coal
                                    mine on a day he was actually in Virginia purchasing an all-terrain
                                    vehicle. In addition to the false filing charge, McClanahan was also
                                    indicted for allegedly seeking and receiving a payment of $300 from
                                    a coal mine operator in return for failing to properly inspect the coal
                                    company's mine. McClanahan pied guilty to thefalsefiling charge in
                                    an agreement to drop the bribery charges, u.s.v. McClanahan(E.D.
                                    Kentucky)




                                                     38
Semiannual Report to the Congress                                                      April 1 - September 30, 1995




Fishing Rod and Reel                Thomas Marcum, a former MSHA mine inspector assigned to
Leads to Sentencing                 Logan, West Virginia, was sentenced to 3 years probation, fined
of MSHA Inspector                   $5,000, and directed not to leave the Southern District of West
                                    Virginia or the Eastern District of Kentucky while on probation. In a
                                    plea agreement, Marcum admitted receiving a fishing rod and reel
                                    worth approximately $180 from the superintendent of a Logan County
                                    mine with the understanding that he would treat the operator more
                                    leniently in the future. At the time of the agreement, the Assistant
                                    Secretary for MSHA issued a news release emphasizing that the
                                    majority of MSHA's employees are committed professionals
                                    dedicated to protecting the miners' lives. However, he also stated
                                    that, "corruption cannot and will not be tolerated." In addition, he said,
                                    "any situation that appears to compromise the integrity of the federal
                                    service must be vigorously and impartially investigated, and
                                    appropriate action taken." At Marcum's sentencing, the judge stated
                                    that public corruption is "a most heinous crime" and one he would not
                                    tolerate, u.s. v.Marcum(S.D.WestVirginia)

Mine Inspector Sentenced            During the previous reporting period, T. Richard Oney, a former
to Prison for Accepting             supervisory inspector with MSHA, pied guilty to one count of
Bribe                               conspiracy. An OIG investigation revealed that he had demanded
                                    and received payments from several mine operators from 1986
                                    through 1991. During this reporting period, he was sentenced to 6
                                    months imprisonment, 2 years supervised probation, and fined
                                    $2,900 (the amount he admitted taking from an official of a Pike
                                    County, Kentucky coal company). Oneywas also ordered to perform
                                    100 hours of community service. He had previously pied guilty to
                                    scheming with a fellow MS HA inspector to extort at least $7,000 from
                                    coal operators in Pike County. u.s.v. Oney(E.D. Kentucky)

                                    Impact:     These MSHA integrity investigations are part of an
                                    initiative which, since 1986, has resulted in the conviction and/or
                                    removal from employment of 14 Federal and 2 State inspectors.
                                     These results demonstrate OIG and MSHA's commitment to
                                    ensure the highest integrity in such inspection programs. They
                                    also serve as a warning to ;ndividuals willing to disregard their
                                    official responsibilities in favor of personal gain, that they will be
                                    sought out and prosecuted for their actions. MSHA has requested
                                    that the OIG's Office of Evaluations and Inspections assist MSHA
                                    to improve its integrity program by studying the policies and
                                    procedures of otherFederal, State, and Local regulatory agencies.
                                     The OIG is also assisting MSHA in the development of a special
                                    ethics training program to be provided to aft inspectors.



                                                      39
Semiannual Report to the Congress                                                     April 1 - September 30, 1995




DEPARTMENTAL                        Brief narratives of additional integrity investigations involving
INTEGRITY                           offenses committed by other DOL employees or individuals
                                    entrusted with I)OL funds or responsibilities follow.

VETS State Director                 Wesley E. Leggett, the Ohio Director of Veterans' Employment and
Sentenced for Weapons               Training Servic:es, entered a guilty plea to improperly handling a
Violation                           firearm in a motor vehicle. Leggett had been charged after he
                                    reportedly pulled a gun from the trunk of his car, pointed the gun at a
                                    subordinate employee, and threatened to use it to resolve a union
                                    grievance issue. Leggett was sentenced to 6 months in jail, fined
                                    $300, ordered to turn over all his handguns for destruction, and
                                    advised to avoid contact with the victim. In addition, a felonious
                                    assault charge ,wasdismissed without prejudice, meaning the State
                                    can re-indict Leggett any time over the next 7 years if he in any way
                                    threatens the victim again. Ohiov. Leggett (D. Ohio)

Five DOL Employees                  As a result of reports of alleged time and attendance fraud being
Charged in Time                     committed by employees in the Department's National Office, the
and Attendance Fraud                OIG's Office of Special Investigations initiated a project to identify
                                    thosewho were involw_d. To date, this initiative has identified five
                                    DOL employees who have committed time and attendance fraud,
                                    fourofwhom have been charged in D.C. Superior Court for theft, and
                                    one employee was charged in Federal District Court. Four of the five
                                    charged have pied guilty, while the other is scheduled for trial in
                                    December. Four have also either resigned their DOL employment or
                                    have been removed as a direct result of this initiative. Based on this
                                    project, DOL has enhanced the security procedures for processing
                                    time and attendance reports atthe National Office. Cost efficiencies
                                    of approximately $12C),000 and recoveries of $7,200 have been
                                    realized. Districtof Columbiav. Purden,Seupaul,Morton,King,and Queen
                                    (DistrictofColumbia)

Former Timekeeper                   Melva Faye Taylor, a former Clerk Typist/Timekeeper for the Bureau
Sentenced for False                 of Labor Statistics, pied guilty to charges of making false statements.
Overtime Claims                     An OIG investigation disclosed that Taylor had made false entries to
                                    her time and attendance records to include overtime hours she had
                                    not worked. These falsified entries were processed through the
                                    payroll department and Taylor received in excess of $27,000 for the
                                    unauthorized overtime. Taylor was sentenced to 3 years probation,
                                    with 6 months in a half-way house, and ordered to pay restitution in the
                                    amount of $27,632. u.s.v. Taylor(Districtof Columbia)




                                                     4O
SemiannualReport to the Congress                                                        Aprir 1 - September 30, 1995




                                   Impact:     The immediate investigation of alleged criminal
                                   misconduct or serious breaches of integrity places DOL
                                   employees on notice that such action will not be tolerated. Federal
                                   service requires the utmost integrity and ethical conduct from its
                                   employees in orderto serve the pubfic trust. DOL management has
                                   demonstrated that those found guilty of serious misconduct may be
                                   removed from federal service, in addition to any appropriate legal
                                   action taken to penalize the guilty.


                                   Unemployment Insurance (UI) is a $36 billion dollar program that is
UNEMPLOYMENT                       susceptible to fraud not only by claimants, but also by those entrusted
                                   with the responsibility of running the program. During this reporting
INSURANCE FRAUD                    period, OI continued devoting resources to the identification and
                                   prosecution of those defrauding the UI program, in furtherance of
                                   several major UI state projects initiated in previous reporting periods.
                                   Current developments include the following.

Three Indicted                     Richard Hicks, Marie Bowser, and Yvette Carter were indicted by a
in False Billing Scheme            Federal Grand Jury for conspiracy and theft in a fraudulent billing
                                   scheme. Hicks, a former Texas Employment Commission (TEC)
                                   employee, was charged with embezzling $427,460 from TEC by
                                   using the TEC computer system to create fraudulent invoices and
                                   causing checks to be issued to fraudulent vendors. Bowser and
                                   Carter were charged with receiving some of the proceeds. An
                                   unindicted co-conspirator, Morris Lee Bailey, entered a guilty plea to
                                   a conspiracy charge for his role in the scheme. Bailey was allowed
                                   to plead guilty in retum for testimony. Ironically, shortly after his arrest,
                                   Bailey appeared on the television "Nightline" news program as an
                                   "expert" in the bill collection industry, u.s.v. Bailey,etal. (W.D.Texas)

Oklahoma State Employee            Donald Jones, a former Oklahoma Employment Security Division
Pleads Guilty                      (OESD) employee, was charged with and pled guilty to bank fraud
to Embezzlement                    after an investigation disclosed he had used his position to embezzle
                                   four UI employer refund checks totaling $353,392. Jones devised a
                                   scheme wherein he would alter UI refund checks making them
                                   payable to a business account he established at his credit union.
                                   Jones used the proceeds to purchase an expensive home, vehicles,
                                   and furnishings. As part of his plea agreement, Jones must forfeit his
                                   $159,000 home, a 1994 Nissan truck, contents of bank accounts, a
                                   satellite dish and big screen television, and other furnishings in his
                                   home. U.S.v. Jones(W.D.Oklahoma)




                                                     41
SemiannualReport to the Congress                                                     April 1 - September 30, 1995




E×-Con Defrauds                    AlexA. Ward, an individual who had previously served time in prison
Ul Program                         for defrauding the California UI program by submitting Ex-
                                   Servicemen's ('ompensation (UCX) UI benefit claims in 1991, pied
                                   guilty to 4 of 22 counts of mail fraud and false claims filed against him
                                   in connection with his filing of 17 additional fraudulent UCXclaims in
                                   California totalling $53,318. Evidence obtained in this investigation
                                   showed that Ward, within 3 weeks after his release from prison for his
                                   previous conviction, began to file false UCX claims using several
                                   aliases and Social Security Numbers. Ward was subsequently
                                   arrested in Alaska where he had also filed a false UCX claim, u.s.v.
                                   Ward(S.D.California)

51-Month Sentence                  A sentence of 51 months incarceration, 5 years probation, 300 hours
for Bank Fraud                     of community service, and an order to pay $49,700 in restitution and
                                   a $50 special assessment fee was handed down to Sandra Wright
                                   following her conviction for bankfraud. Wright created a counterfeit
                                   State of Arkansas Employment Security Department benefit check
                                   made payable to her in the amount of $115,000. Using the altered
                                   check, she opened a savings account, deposited most of the money,
                                   and then withdrew a total of $59,000. This investigation was
                                   conducted jointly with the FBI. u.s.v. Wright(N.D. Indiana)

Sentences Ordered                  M. Vincent Dunn was sentenced to 1 year in prison to be followed by
in Ul Fraud Scheme                 3 years supervised release in connection with a scheme to defraud
                                   the Michigan Employment Security Commission (MESC). Patricia
                                   O'Neal, a co-conspirator, was sentenced to 3 years supervised
                                   release with the first 4 months confined to her house. The sentences
                                   are the result of an investigation which disclosed that Dunn, a former
                                   attorney, and Ernestine Calhoun, his girlfriend, conspired with
                                   Calhoun's sister, O'Neal, to fraudulently collect UI benefits. The
                                   conspirators filed nine fraudulent UI claims with MESC during a 4-
                                   year period and collected over $72,460 in UI and federally funded
                                   extended benefits, u.s.v. Dunn,etal. (E.D.Michigan)

Ul Fraud Detected by               An alert New York State Department of Labor (NYDOL) employee
New York State Employee            was instrumental in the initiation of a joint investigation with the
                                   NYDOL OIG of Mark J. Esposito. The employee noticed that
                                   Esposito had previousUy been in the office filing a UI claim under a
                                   different name. The investigation determined that, during a period of
                                   four years, Esposito filed 30 UI claims, totalling over $121,000,
                                   against several alleged former employers. He used his true last
                                   name on all of the claims but alternated between three different first
                                   names and varied the dates of birth and social security numbers



                                                    42
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




                                    used. Esposito was charged with mail fraud and subsequently
                                    arrested by OI Special Agents. u.s.v. Esposito(E.D.NewYork)


                                    Ul investigative matters previously reported         in other
                                    Semiannual Reports, but having significant sentencings or
                                    other action taken during this period, are detailed below.


Seven Plead Guilty                  Another significant investigation into U Ibenefit fraud in New Jersey,
in Ul Fraud Scheme                  commonly referred to as the"Hot Dog Man" case (detailed in two of
                                    our last three Semiannual Reports), continued during this reporting
                                    period. This on-going effort recently resulted in a 16-count indictment
                                    being returned in Newark charging two brothers, Guillermo and
                                    Diego Marte, and now retired New Jersey State Department of Labor
                                    (NJDOL) clerk, Gretchen Smyth, for their roles in a scheme to help
                                    illegal aliens fraudulently apply for UI benefits at the Elizabeth, New
                                    Jersey UI office. The Marte brothers collected $500 fees from the
                                    applicants and referred them to Smyth who, for a share of the fee,
                                    would further process the claims. Smyth and the Marte brothers have
                                    all entered guilty pleas to 3 of the 16 charges, and are scheduled to
                                    be sentenced in late October. In addition, four others, Jairo Gumez,
                                    Ivan Renjifo, Ramiro Roldan, and Maria Roldan, connected with the
                                    Elizabeth scheme, pied guilty to criminal informations charging them
                                    with conspiracy. These pleas bring the total number of felony guilty
                                    pleas in this case to 16. u.s.v. Marte,etal. (D. NewJersey)

Ringleader Sentenced                In addition, as a part of this UI probe, sentencing actions were taken
to Over 8 Years                     against eight ofthe nine people previously charged as part of the "Hot
in Prison                           Dog Man" scheme in Newark, New Jersey. The most significant
for Ul Fraud                        sentence was for Antonio Rodriguez, the leader of the conspiracy,
                                    who was sentenced to 97 months incarceration to be followed by 3
                                    years probation. During sentencing he acknowledged that the
                                    scheme had run from 1979 until his arrest in 1994 and resulted in
                                    illegal aliens fraudulently collecting up to $40 million in UI benefits.
                                    Six New Jersey Department of Labor (NJDOL) workers from the
                                    Newark Office were also sentenced. Christopher Boyd, Barbara
                                    Sirmans, Phyllis Thomas, Ana Torres and RosaritoVasquez all were
                                    sentenced to prison, with sentences ranging from 8 to 27 months. All
                                    but Boyd were ordered to pay restitution of either $5,000 or $10,000.




                                                     43
SemiannualReport to the Congress                                                   April 1 - September 30, 1995




                                   A sixth Newark NJDOL employee, Rita Tyler, was sentenced to six
                                   months home detention to be followed by 3 years probation, u.s.v.
                                   Rodriguez,   et aL (D. New Jersey)


                                   Impact: Through aggressive investigation and prosecution of such
                                   individuals, UI funds designed to support workers who lose their
                                   jobs through no fault oftheir own are now more readily available for
                                    their intended purpose. Program changes have been made by
                                    NJDOL to limit tt_eaccess of NJDOL employees to computers and
                                    additional screening is done to legitimize claims. Most importantly,
                                    this case has removed seven corrupt NJDOL employees who
                                   jeopardized the public's trust in the UI system.


                                   PF also continued to focsusits attention on investigations of wrong-
JOE}TRAINING                       doing and fraud within DOL's             Employment and Training
                                   Administration (ETA) programs administered under the Job Training
PARTNERSHIP ACT                    Partnership Act (JTPA). The JTPA programs are designed to assist
FRAUD                              unskilled and economically disadvantaged youths and adults in
                                   receiving training and eventual employment.         However, JTPA
                                   programs continue to be vulnerable to theft and embezzlement of
                                   federal funds. Recent investigations have resulted in state officials,
                                   community leaders, and other training contractors being convicted of
                                   crimes including taking kickbacks, conspiracy, and/or providing
                                   false information to illegally obtain JTPA funds. For example:

JTPA Sub-Contractor                Callistus Ugwu, a former JTPA sub-contractor with the Central
Sentenced to Prison                Arkansas Planning and Development District, was recently
                                   sentenced to 11 months in prison, and one year supervised
                                   probation. Ugwu had previously pied guilty to embezzlement of
                                   employment and training funds. An investigation disclosed that
                                   Ugwu had received $119,685 after fraudulently claiming he had
                                   trained JTPA participants in auto mechanics and auto body work,
                                   knowing that he had not trained or employed these individuals, u.s.
                                   v. Ugwu (E.D. Arkansas)


OJT Contractor         Arrested    Gary A. Abdullah, the former owner of an import/export clothing
                                   design business in San Francisco, was arrested by OIG Special
                                   Agents in Newark, New Jersey, and ordered by the court to return to
                                   California to face charges which had been filed against him there.
                                   Abdullah was a JTPA contractorwho signed OJT contracts with the
                                   San Francisco Private Industry Council (PIC) agreeing to train and
                                   hire OJT participants at a specified pay rate. An OIG investigation



                                                       44
Semiannual
        ReporttotheCongress                                                   April1 - September
                                                                                              30, 1995




                              determined that Abdulla paid the participants far less than agreed,
                              but sought and received reimbursement from the PIC at the higher
                              rate, thereby receiving $18,400 in JTPA funds to which he was not
                              entitled, u.s.v. Abdulla(N.D.California)

Phoney Business               A 13-count indictment was returned by a grand jury in San Francisco,
Results in                    charging Benjamin A. Ward with theft of government funds, money
Criminal Charges              laundering, and false statements in connection with his scheme to
                              defraud the JTPA program. The indictment resulted from an
                              investigation which determined that Ward, using several aliases
                              during a 4-year period, created six fictitious business names in order
                              to fraudulently obtain over $117,000 in JTPA on-the-job training
                              contracts from three different local Service Delivery Areas. u.s.v.
                              Ward (N.D. California)



                              Following are some of the guilty pleas and sentencings of
                              individuals convicted of JTPA-related violations, which were
                              detailed in previous reports.


JTPA Contractor               In follow-up to a $296,000 JTPA fraud investigation detailed in our
and Husband Sentenced         last two Semiannual Reports, Kathleen Bacon Miller, the president of
to Jail                       Quality Plus, Inc. (QPI), an Atlanta-based JTPA clerical training
                              contractor, was sentenced to 21 months in prison, to be followed by
                              3 years probation, ordered to pay a $100 special assessment fee,
                              and to perform 200 hours of community service. Her husband, Barak
                              Miller, who served as QPI's financial aid officer, was sentenced to 1
                              year in prison, 3 years probation, ordered to pay a $100 special
                              assessmentfee and to perform 200 hours of community service. The
                              Millers were also jointly ordered to make restitution in the amount of
                              $154,664. Charges against a third defendant, Paris Miller (no
                              relation), were ultimately dismissed since she did not gain any
                              personal profit from the scheme, u.s.v. Miller, etaL (N.D. Georgia)

Computer Center Owner         Greg M. Ilag, ownerofthe Queens Computer Center(QCC) in New
Sentenced for                 York, was sentenced to serve 6 months home detention, 5 years
Fraudulently Receiving        probation, fined $15,000, and ordered to pay $14,721 in restitution,
Government Funds              after pleading guilty to a criminal information charging him with mail
                              fraud for having fraudulently obtained $85,000 in DOL JTPA and U.S.
                              Department of Education funds in connection with his alleged training
                              and placement claims, u.s.v. Ilag(E.D.NewYork)




                                                  45
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




Former Tennessee SDA                Former Tennessee Service Delivery Area 12 (SDA-12) Fiscal
Officer Sentenced for               Officer Donald Seaton, after previously having pied guilty to
Embezzling JTPA Funds               embezzling JTPA funds, was sentenced to 4 months home detention,
                                    one year probation, fined $2,000, and ordered to pay a special
                                    assessment fee of $100 and make restitution of $11,856. u.s.v.
                                    Seaton(W.D.Tennessee)

Atlanta CPA Firm                    The DOL also took decisive administrative action against Hope
Debarred                            Merritt, Jr., President of Merritt and Company, Inc., an Atlanta CPA
                                    firm, when it debarred Merritt and his company from doing business
                                    with the U.S. Government for a 3-year period, effective April 20, 1995.
                                    The debarrments resulted from an investigation detailed in our
                                    October 1, 1993 to March 31, 1994, Semiannual Report which
                                    disclosed Merritt had fraudulently received over $150,000 in JTPA
                                    funds, u.s. v. Merritt(ND. Georgia)

                                    Impact: PF investigations have prevented millions of dollars of
                                    taxpayers' money from being taken by the continuation of these
                                    criminal schemes. These case results serve as an illustration of the
                                    vulnerability of the Nation's job training system to fraud and the
                                    need for continued oversight over these programs.




.....                               The Office of Investigations' Division of Labor Racketeering (LR)
DIVISION OF LABOR                   conducts criminal investigations to eliminate the influence of
                                    traditional and non-traditional organized crime, labor racketeering,
RACKETEERING                        and corruption in employee benefit plans, labor-management
,,_                                 relations, and unions.


                                    The LR continues to emphasize the utilization of the equitable powers
ORGANIZED CRIME                     of the court, through the;development of civil racketeering cases, to
                                    address the underlying cause of labor racketeering problems --the
                                    influence of organized crime over labor unions. This approach
                                    continues to be successful as highlighted by the September 5, 1995,
                                    filing of a consent decree between the U.S. Government and the Hotel
                                    Employees and Restaurant Employees International Union
                                    (HEREIU).

                                    In 1985, the President's Commission on Organized Crime identified
                                    the HEREIU as one of four international unions under the control of La



                                                     46
Semiannual Report to the Congress                                                      April 1 - September 30, 1995




                                    Cosa Nostra. The others identified bythe President's Commission
                                    on Organized Crime were the International Brotherhood of
                                    Teamsters, the International Longshoremen's Association and the
                                    Laborers International Union of North America.          In 1989, the
                                    Government entered into an agreement with the Teamsters union to
                                    eradicate the corrupt influences intheir organization. In March 1995,
                                    the Government entered into a similar agreement with the Laborers
                                    International Union of North America. A September 1995, Civil RICO
                                    settlement with the HEREIU marks the third international union that
                                    has agreed to root out corruption from its ranks.

                                    An investigation conducted by LR and the Federal Bureau of
                                    Investigation established that the General Executive Board of
                                    HEREIU had operated the HEREIU as a racketeering enterprise.
                                    Racketeering acts by the general executive board included:
                                    appointing organized crime members and associates to positions
                                    within the HEREIU; permitting improper expenditures of union
                                    assets, and aiding HEREIU officials in accepting items of value from
                                    employers. Predicated on the investigation, a civil racketeering
                                    complaint was filed by the Department of Justice and a settlement
                                    reached with the HEREIU. The agreement and the Court's decree
                                    required the appointment of a monitor who is empowered by the
                                    court to investigate corruption within HEREIU, remove corrupt
                                    officials, and oversee operations of the union. The consent decree
                                    also calls for the establishment of an ethical practices code and a
                                    public review board. Six of the union's executive board members
                                    have either resigned or retired since the beginning of negotiations for
                                    this settlement.

                                    With the settlement of the civil racketeering case against the
                                    HEREIU, the government has addressed the mob's cont,ol over
                                    three of the four international unions identified by the President's
                                    Commission on Organized Crime.


                                    The LR has also established as an investigative priority the emerging
NON-TRADITIONAL                     non-traditional organized crime groups that adversely affect the
ORGANIZED CRIME                     workplace and America's workers. The LR conceptualized an
                                    integrated approach to effectively address criminal activity in the
                                    workplace, which has successfully resulted in joint efforts with the
                                    Immigration and Naturalization Service (INS) to address the problem
                                    of an illegal labor force. Our findings leading up to this initiative have
                                    shown that the balance between labor and management, which the



                                                      47
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




                                    Congress has historically promoted in labor law, has been adversely
                                    affected bythe use of illegal workers --often at lower than fair wages.
                                    In support of this priority, a joint effort is underway with the INS to
                                    address employers that hire illegal workers -- quite frequently in
                                    conditions of involuntary servitude--that have been smuggled illicitly
                                    into the country by organized criminal groups. By bringing both
                                    agencies together and utilizing, in a combined approach, labor and
                                    immigration law, we hope to create a disincentive for employers to
                                    knowingly hire illegal workers -- to the detriment of American workers
                                    and competing employers who pay fair wages.

PROTECTING                          The first phase of this joint effort was Operation SouthPAW
AMERICA'S WORKERS                   (Protecting America's Workers in the South). Operation SouthPAW
                                    targeted a number of employers in the Southeast who had been the
                                    subject of complaints for violations of the Employers Sanctions
                                    Statute, the Employee Retirement Income SecurityAct, and Wage
                                    and Hour Laws. The operation methodology first verified the status
                                    of employees working for targeted employers and removed the
                                    illegal workers who were working in violation of law. Secondly, the
                                    operation sought to investigate those employers who knowingly
                                    violated the Employers Sanctions Statute and the other labor
                                    protection laws by hiring illegal employees.

                                    Operation SouthPAW has identified more than 4,000 illegal workers
                                    employed in violation of immigration laws and, as a result, has
                                    restored $55 million in annual salary opportunities for legal workers.
                                    These aliens diverted an estimated $806,446 in wages per day that
                                    could have been paid 1:oAmerican workers. Thus far, 10 employers
                                    in Georgia and Alabama have been cited and fined for non-
                                    compliance.     Operation SouthPAW's is currently focusing on
                                    investigation of those employers who knowingly hired the illegal
                                    workers, thereby violating immigration and labor laws. In addition,
                                    the operation is looking into the organized crime groups smuggling
                                    illegal workers into the United States and brokering their services to
                                    employers.

                                    Public reaction to this initiative has been extremely positive as legal
                                    workers are hired as replacements for those illegal employees who
                                    were removed from employment.                Additionally,  competing
                                    employers have praised this effort because they now have a chance
                                    to successfully bid on contracts as no one employer holds a labor cost
                                    advantage over another.




                                                     48
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   The following case examples illustrate some of the significant efforts
LABOR-MANAGEM               ENT    of the Division of Labor Racketeering in removing corruption from the
RELATIONS                          nation's labor unions.

Cleveland                          Chester L. "Zip" Liberatore, the business manager of Cleveland's
Laborers' Union Official           largest Laborers' Union, Local 310, pied guilty to an indictment
Pleads Guilty                      charging him with accepting an item of value from a company under
                                   contract to Local 310. Local 310 represents approximately 2,600
                                   members working in the building trades in Northeastern Ohio.

                                   Liberatore was charged with accepting materials and labor valued at
                                   between $10,000 and $20,000 for an addition made to his house by
                                   a Cleveland-area business which was under contract with Laborers'
                                   Local 310. He paid $2,500 for the materials and labor. In addition,
                                   Liberatore acknowledged accepting labor and materials from other
                                   contracted companies in excess of $10,000 for other remodeling
                                   projects at his residence.

                                   This investigation was conducted jointly with the Federal Bureau of
                                   Investigation in conjunction with the Organized Crime Strike Force
                                   Unit of the U.S. Attorney's Office in Cleveland, Ohio. u.s.v. Liberatore
                                   (N.D.ofOhio)

                                   Impact: This investigation was important because the Liberatore
                                   family has held a stranglehold on Cleveland's Laborers' Union
                                   locals for more than 20 years. Liberatore is the nephew of Anthony
                                   Liberatore, a member of the Cleveland family of La Cosa Nostra.
                                   Anthony Liberatore is the former business manager of Laborers'
                                   Union Local 860. "Zip" Liberatore's father, Chester J. Liberatore,
                                   was the Secretary of Laborers' Local Union 310 for more than 20
                                   years prior to his conviction in federal court. Both Chester J. and
                                   Anthony Liberatore were convicted on a variety of financial crimes
                                   in connection with their union positions and subsequently removed
                                   from union office. With the conviction of "Zip" Liberatore, the
                                   influence of La Cosa Nostra over Cleveland's Laborers' Union
                                   locals is severely diminished.

Five Maritime                      Five former officers of the largest maritime union in the United States,
Union Officers                     District No. 1 - Marine Engineers Beneficial Association of America/
Convicted                          National Maritime Union (MEBA/NMU), were convicted of
                                   racketeering in a scheme involving the theft of $2 million dollars of
                                   union funds, election fraud, and extortion of political action fund
                                   contributions. The union, as the result ofa 1988 merger, represented



                                                    49
Semiannual Report to the Congress                                                    April 1 - September 30, 1995




                                    licensed engineers and unlicensed seamen at ports throughout the
                                    country, but broke apart in 1992 as the result of controversy over the
                                    merger.

                                    The defendants were the former MEBA/NMU president, C. Eugene
                                    DeFries; the former executive vice-president and Branch Agent for
                                    the Port of San Francisco, Clyde Dodson; the former vice-president
                                    and Branch Agent for the Port of New Orleans, Claude Daulley; the
                                    former vice-president and Branch Agent for the Port of New York,
                                    Reinhold Scharnann; and the Branch Agent for the Port of Houston,
                                    Alexander Cullison.

                                    Four of these defendants, DeFries, Dodson, Daulley, and
                                    Schamann, were convicted of defrauding the union through a scheme
                                    involving phony severance payments linked to the merger of District
                                    No. 1 - Pacific Coast District, Marine Engineers Beneficial
                                    Association (MEBA) and the National Maritime Union in 1988.
                                    These four, and a fifth officer who cooperated with the Government,
                                    claimed that the merger effectively terminated their employment with
                                    MEBA, and consequently, theywere entitled to severance payments,
                                    even though they remained employed in the successor union. The
                                    union's membership was not informed of the amounts the officers
                                    could be paid or that theywould be paid severance when the unions
                                    merged.

                                    All five officers were convicted of soliciting blank ballots from union
                                    members and then voting the ballots for themselves. They also
                                    discarded legitimate ballots and replaced them with improperly
                                    obtained ballots, and tampered with legitimate ballots.

                                    The extortion conviction arose from threats made by Cullison and
                                    others to union members who resisted the defendants' efforts to
                                    obtain both election ballots and contributions to the MEBA political
                                    action fund. Among the extortionate activities were threats to delay
                                    the processing of members' pension applications and to deny
                                    members basic union services, such as access to the MEBAtraining
                                    school.

                                    This investigation was conducted jointly with the Federal Bureau of
                                    Investigation in conjunction with the Department of Justice's
                                    Organized Crime and Racketeering Section. u.s.v. DeFries,et al.
                                    (DistrictofColumbia)




                                                     50
SemiannualReporttothe Congress                                                     April1 - September30, 1995




                                 Impact:      This investigation identified what were apparently
                                 longstanding election fraud and coercive political action fund
                                 solicitation practices in the maritime industry. The investigation
                                 showed that the union officials sought only to benefit themselves
                                 during the merger and failed to uphold the high calling of their union
                                 offices. Aside from the deterrent effect on future abuses by union
                                 officers in elections, this case is significant for the legal precedent
                                 that it establishes in the use of the mail fraud statute in fraudulent
                                 state and local elections. The Court of Appeals for the District of
                                 Columbia held that union ballots had more than the dimmimus face
                                 value of the ballot itself, but held significant value for the union with
                                 respect to the rights of union members to an honest election. The
                                 Circuit Court's opinion has achieved landmark status among U.S.
                                 Attorneys for showing how the costs of an election can be used to
                                 show pecuniary loss deriving from voter fraud in non-federal
                                 elections. This prosecution is also the first RICO conviction of the
                                 entire governing board of a national union, and is the first conviction
                                 of national-level union officers in the District of Columbia in over 20
                                 years.

Insurance Broker                 Harvey G lick, the former president and owner of HIG Associates, a
Arrested on Charges              Long Island insurance brokerage firm, was arrested following an
of Making Payoffs                indictment charging him with making illegal payoffs to a former union
to Former Union Official         official. Glick was charged with allegedly conspiring with William
                                 Loeb, the former president of Consolidated Local 867 and former
                                 trustee of the Consolidated Welfare Fund, to make payments to Loeb
                                 totalling $150,000. These payments were made to ensure that Glick
                                 remained the exclusive agent to market insurance coverage being
                                 offered through the Consolidated Welfare Fund. Commissions
                                 earned by Glick on these sales totalled approximately $1.3 million.

                                 Loeb, who previously pied guilty to embezzling approximately
                                 $250,000 from the union and its welfare fund, is currently serving a
                                 seven-year sentence in federal prison. This investigation was
                                 conducted by the Division of Labor Racketeering and the Pension
                                 and Welfare Benefits Administration. u.s.v. Harveyl. Glick (E.D. New
                                 York)

Two Former Philadelphia          John Shaw, the former president of the Fraternal Order of Police
Police Officers Sentenced        (FOP) Lodge 5, and Anthony LaSalle, the secretary/treasurer of the
for Union-related                Lodge, were sentenced on charges of racketeering, mail fraud, and
Racketeering Activity            commercial bribery. Shawwas sentenced to 57 months in prison and
                                 ordered to forfeit over $40,000. LaSalle was sentenced to 37 months



                                                   51
SemiannualReport to the Congress                                                     April 1 - September 30, 1995




                                   imprisonment and ordered to pay over $2,500. In addition, both men
                                   were ordered to make restitution of over $16,000 to the City of
                                   Philadelphia.

                                   The two men were found guilty of mail fraud and racketeering acts
                                   including solic,iting money, campaign contributions, services, and
                                   other items of value from several local businessmen in return for the
                                   guarantee of future FOP business, u.s.v. Shaw, etaL (E.D. Pennsylvania)

Two Brothers Heading               Joseph LaBarck, Sr. and his brother, Raymond LaBarck, theformer
New Jersey Textile Union           president and vice-president of the Amalgamated Clothing and
Sentenced on                       Textile Union of America Local 1733, were sentenced to 44 months
Racketeering Charges               imprisonment on racketeering, extortion, and related charges.

                                   The two men were found guilty in February 1994, of engaging in a 7-
                                   year scheme that employed threats and violence. They were also
                                   found guilty of accepting more than $500,000 in illegal payments from
                                   employers to ensure labor peace prior to three contract negotiations.
                                   The two also accepted illegal Christmas and vacation cash gifts and
                                   forced employers to hire relatives. In addition, theywere found guilty
                                   of embezzling from the Local's general operating account, u.s.v.
                                   LaBarckandLaBarck(D. NewJersey)

                                   Impact:     This investigation has resulted in the removal of two
                                   racketeers who maintained criminal dominance of the textile
                                   processing industry in northern New Jersey, through extortion and
                                   fear of violence.

Philadelphia Civic Center          Joseph O'Shea, employed by the City of Philadelphia as the stage
Manager Pleads Guilty              manager of the Philadelphia Civic Center, was charged with
to Mail Fraud Charges              defrauding various promoters, artists, and sponsors of events at the
                                   Civic Center. O'Shea allegedly devised a scheme to inflate
                                   stagehand labor expenses through his company, Back Stage Right,
                                   Inc. Joseph O'Shea used his connection with his brother, Francis
                                   O'Shea, who was the president of the International Alliance of
                                   Theatrical Stage Employees (IATSE) Union Local 8. Joseph O'Shea
                                   was permitted to operate by his brother despite not having a union
                                   contract. He was not required to pay his employees the prevailing
                                   wage rates and benefits. However, Joseph Q'Shea charged
                                   promoters and concert groups based upon the prevailing rates and
                                   benefits.




                                                    52
Semiannual
        Reportto theCongress                                                     April 1 - September30, 1995




                                In addition, Joseph O'Shea, was charged for allegedly using "ghost
                                employees" and phony bills to defraud numerous artists, promoters,
                                and sponsors of over $100,000. The mail fraud charge stems from
                                O'Shea's use of the U.S. Mail system to deliver and receive
                                payments for the false billings.

                                Francis O'Shea, the IATSE President, drew no salary from the union,
                                instead, he worked for Electric Factory Concerts (EFC), Inc., the
                                largest promotion company in the Pennsylvania, Delaware, and New
                               Jersey area. As a result of this arrangement, Francis O'Shea
                               appeared on as many as three separate payrolls in different locations
                               for the same hours. Flewas also allowed to place ghost employees
                               at large stadium concerts, and retain the salary proceeds. In turn, he
                               allowed concert promoters to pay union members in cash and waived
                               their health and welfare benefit fund contribution payments. This
                               systematic cheating permitted the EFC to profit because it was
                               billing groups and performers for full union wages, benefits, and
                               payroll taxes. Francis O'Shea and Alan Spivak and Sidney Payne,
                               the President and Vice-President of EFC, have been convicted and
                               have served prison sentences. EFC was ordered to pay a restitution
                               to the Internal Revenue Service more than $1.2 million. Joseph
                               O'Shea pied guiltyto the charges and is awaiting sentencing, u.s.v.
                                O'Shea (E.D. Pennsylvania)


                                Impact:   This investigation has stopped the largest promotion
                                company in the Pennsylvania, Delaware, and New Jersey area
                                from the practice of defrauding concert groups and the IA TSE
                                benefit funds.    In addition, this investigation efiminated the
                                systematic pattern of paying off an IA TSE union official.


                                 The Division of Labor Racketeering has devoted considerable
EMPLOYEE BENEFIT                 resources to the investigation of employee benefit plans. It is
PLAN INVESTIGATIONS              apparent that the large amounts of money residing in pension plans
                                 (estimated to be in excess of $4 trillion) and the billions of dollars
                                flowing through the employee benefit plans are lucrative targets for
                                 racketeers. It is also apparent from our investigations that the costs
                               • of making contributions to these plans is a significant expense for
                                 employers -- an expense that some will avoid by bribing a corrupt
                                 union official. Some of our most significant cases in this are follow:




                                                  53
Semiannual
        Reporttothe Congress                                                   April 1 - September30, 1995




Company President              In 1990, LR began a 4-year investigation into the misuse of employee
Indicted for Attempting        benefit plan funds by trustees of Locals 256 and 144 of the United
to Influence Benefit Plan      Brotherhood of Carpenters in Georgia. Also targeted were the
                               union's third party administrator, Light and Associates (L&A); a
                               company seeking union benefit plan monies, the Tahoe Company;
                               and a representative for the Carpenters International Union.

                               In July 1992, the President of L&A, Larry Patterson, pied guilty to
                               charges of embezzlement of over $200,000 from 9 union employee
                               benefit plans administered by L&A. Patterson established special
                               bank accounts where he deposited refund checks from claims paid
                               by insurance companies. Patterson was sentenced to 22 months of
                               incarceration, :3years of probation, 500 hours of community service,
                               and he was ordered to pay over $130,000 in restitution.

                               In 1995, Robert Jernigan and Waylon Morton, trustees of Locals 256
                               and 144, and John Oglesby, the Carpenters Union International
                               Representative, pied guilty to receiving kickbacks totaling $135,000
                               from the Tahoe Company. With Oglesbyfacilitating the transactions,
                               Jernigan and Morton made unauthorized investments of plan money
                               in Tahoe Company stock totalling over $325,000. In addition, the
                               Vice-President and attorney for the Tahoe Company, pied guilty to
                               charges of offering gratuities to influence the operations of an
                               employee benefit plan. All of the defendants received prison
                               sentences ranging from 14 to 24 months, and fined between $10,000
                               and $15,000. Moreover, all of the defendants are barred from any
                               activities relating to employee benefit plans and labor organizations.

                               In June 1995, the President of the Tahoe Company, Walter D.
                               Tearse, was indicted fl3rallegedly offering a kickbackto influence the
                               operation of an employee benefit plan. Tearse allegedly offered
                               kickbacks to Jernigan and Morton in order to influence their decision
                               to invest in Tahoe Company stock. Tearse was also indicted for
                               obstruction of justice charges after altering documents related to his
                               activities with Jernigan and Morton.          This investigation was
                               conducted jointly with the Federal Bureau of Investigation, the
                               Pension and Welfare Benefits Administration, the Office of Labor
                               Management Standards, and all three Georgia Districts of the
                               Department of Justice. u.s.v. Tearse(S.D. Georgia)

                               Impact:    This investigation demonstrated the wide range of
                               possible corruption associated with benefit plans. It identified and
                               removed officials involved in several different aspects of an



                                                54
SemiannualReport to the Congress                                                    April 1 - September 30, 1995




                                   employee benefit plan, ranging from the trustees of the plan to the
                                   company officers seeking investments.        Concurrent with this
                                   criminal investigation, a civil suit was filed and most of the
                                   embezzled monies were returned to the plan.

Former Chicago                     Paul Glover, the former general counsel and vice-president of the
Truck Drivers'                     Chicago Truck Drivers and Warehouse Workers Union, was
Union Officials Convicted          convicted of racketeering, conspiracy, money laundering, accepting
of Racketeering                    pension fund-related kickbacks, and filing false income tax returns.
                                   John R Johnson, the union's former president, was also convicted of
                                   racketeering. The two maintained control over the union's pension
                                   plan which had assets valued at close to $300 million.

                                   The indictment charged Glover with engaging in a conspiracy with
                                   Johnson to illegally manipulate the investment of about $72 million of
                                   the pension plan's assets. Glover and Johnson split over $600,000
                                   they had obtained through illegal kickbacks and fraudulent
                                   investment schemes. Johnson was convicted in July 1994, and
                                   served as the prosecution's key witness during Glover's trial.

                                   In September, Glover was sentenced to 7 years imprisonment,
                                   ordered to forfeit $325,000, and barred from any union or labor
                                   activity for a period of 13 years. This investigation was conducted
                                   jointly with the Office of Labor-Management Standards and the
                                   Criminal Investigation Division of the Internal Revenue Service. u.s.
                                   v. Glover(N.D.Illinois)

                                   Impact: This investigation served to remove corrupt officials from
                                   the Chicago Truck Drivers Union's top positions. The Union's
                                   pension, health, and welfare fund investments are now closely
                                   monitored by all ofthe union and employer trustees. In addition, the
                                   fund's investments are now openly disclosed and reported to the
                                   rank and file membership.

California Businessman             Ronald Gordon Loetz, Sr., a California insurance executive, was
Indicted in                        indicted for his involvement in a scheme to defraud individuals with an
Health Insurance Scheme            unsound health insurance plan conceived and marketed by Loetz.
                                   The indictment charges Loetz with allegedly making false claims in
                                   order to induce consumers to purchase his health plan, including
                                   claims that it was fully insured by Lloyd's of London and other
                                   insurance companies when therewas no such insurance available.
                                   Loetz also claimed that this plan met the requirements under ERISA,
                                   and, thus, was exempt from State insurance regulation and oversight.



                                                    55
SemiannualReporttothe Congress                                                      April1 - September30, 1995




                                 Loetz obtained ,approximately $5.8 million in premium payments and
                                 association dues paid by consumers throughout the country. When
                                 his health plan finallywent out of business in late spring of 1991, policy
                                 holders were leftwith over $3.7 million in unpaid medical bills. The
                                 indictment alleges that Loetz was paid a 6 percent fee and, in
                                 addition, diverted over $300,000 of plan assets to his personal use.
                                 He is also charged with attempting to use plan assets in order to
                                 purchase a defunct insurance company with the intention of
                                 continuing to deceive the public that his health plan was"fully insured."
                                 This investigation was conducted jointly with the California
                                 Department of Insurance Investigation Bureau and the Criminal
                                 Investigation Division of the Internal Revenue Service. u.s.v. Loetz
                                 (N.D.California)

                                 Impact:    The indictment from this investigation has exposed a
                                 fraudulent heal'th h_surance plan.

Real Estate Company              John Robert Bogle, the former president of Bogle Industries, was
President Convicted              convicted of ernbezzlirlg more than $758,000 from the R. H. Bogle
for Embezzling Pension           Company Employee Pension Trust. In addition, Bogle was also
Funds                            convicted on the charge of conspiring with the company's former
                                 comptroller, Robert A. Porco, to commit the embezzlement and to
                                 launder the stolen money.

                                 The R. H. Bogle Company, a real estate development business and
                                 subsidiary of Bogle Industries, was sold in 1986. After the sale, the
                                 company no longer made contributions to its pension fund, the R. H.
                                 Bogle Company Employee Pension Plan. The assets of this plan
                                 were then folded into the R. H. Bogle Employee Pension Trust. The
                                 investigation disclosed that Porco and Bogle embezzled $758,333
                                 from the Pension Trust through a series of illegal transactions. The
                                 embezzled funds were routed through various entities controlled by or
                                 in partnership with Bogle Industries, the parent company.

                                 Bogle was sentenced to 70 months incarceration. Porco pied guilty
                                 to conspiracy to embezzle pension plan assets, was sentenced to 6
                                 months imprisonment, and was required to make a restitution of
                                 $652,455. This investigation was conductedjointlywith the Federal
                                 Bureau of Investigation and the Pension and Welfare Benefits
                                 Administration. u.s.v. Bogle(E.D.Virginia)




                                                  56
SemiannualReportto the Congress                                                    April1 - September30, 1995




Former                            In follow-up to an investigation detailed in our previous Semiannual
Insurance Company                 Report, Louis J. Hevey, the former Chief Financial Officer for the
Chief Financial Officer           Twentieth Century Life Insurance Company (TCL), was charged with
Charged in Multi-Million          mail fraud conspiracy and money laundering in an insurance fraud
Dollar Fraud Scheme               scheme. Hevey conspired with TCL company officers, Glenn H.
                                  Martin and Candice Cooper, to divert approximately $9.7 million in
                                  premiums from the sale of policies to other accounts and
                                  corporations owned by Martin. These transactions were in direct
                                  violation of an agreement that Martin and TCL had signed with the
                                  Florida and North Carolina Departments of Insurance. Hevey, Martin,
                                  and Cooper concealed these diversions of premiums by making
                                  false and fraudulent statements to the Florida and North Carolina
                                  insurance regulators. Hevey cooperated with the prosecution and
                                  testified against Martin and Cooper. Hevey was sentenced to 21
                                  months imprisonment and ordered to pay restitution of $9.7 mill ion.
                                  This investigation was conducted jointly with the Criminal
                                  Investigation Division of the Internal Revenue Service. Assistance
                                  was also provided by the Florida and North Carolina Departments of
                                  Insurance. u.s.v. Hevey(M.D.Florida)

                                  Impact: This case is significant m that the court has held that the
                                  laundered money is subject to forfeiture and should be returned to
                                  those hurt by the scheme. The investigation will have a significant
                                  deterrent effect due to the publicity of the case. Martin and Cooper
                                  rived opulent fifestyles and were frequently featured in Florida
                                  newspapers' society columns. One reporter described Martin and
                                  Cooper as being members of the "helicopter rich" set, all with stolen
                                  money. The investigation and prosecution of the officers of TCL
                                  can be directly finked to recent changes in the regulation of how
                                  insurance companies operate. The State of North Carolina used
                                  the experience gained from this investigation to modify its
                                  investment statutes and reporting requirements. North Carolina
                                  now requires insurance companies to file annual reports through
                                  the-U.S, mail. Any future fraudulent filings by unscrupulous
                                  individuals will now be subject to Federal mail fraud penalties.

Two Plead Guilty to               Edward Zinner and Mark"Waldo" Waldron pied gui Ity to charges of
Million Dollar                    their involvement in a phony health insurance scheme. Zinner
Insurance Scheme                  marketed and administered two fraudulent employee health
                                  insurance plans: the Atlantic Plan and the American Plan. Both of
                                  these operations received over $12 million in subscriber premium
                                  payments from 1990 to 1995. The indictment charged the two with
                                  "systematically" failing to pay, orfully pay, valid health care benefit



                                                   57
Semiannual Report to the Congress                                                   April 1 - September 30, 1995




                                    claims, leaving the policy holders with unpaid medical bills. The two
                                    plans were marketed to small businesses in 26 states claiming that
                                    theywere properly insured. Both Zinner and Waldron are awaiting
                                    sentencing, u.s. v. Zinner,etal. (E.D.Pennsylvania)

Former Houston                      Ronald Alton Kern, the former president of the International
Teamster Official                   Brotherhood of Teamsters Local 1111, pied guilty to charges that he
Pleads Guilty                       used his influence as a former union official to enrich himself and
                                    caused teamsters officials to falsify pension records. Kern is
                                    currently the vice-president and part owner of Cinema Trucks of
                                    Texas. This company supplies trucks, equipment, and drivers used
                                    by movie production companies filming in southern Texas.

                                    Kern was involved in a scheme to falsify pension records during the
                                    production of the motion picture, "Rush" in 1991. The union was
                                    required to submit monthly remittance reports setting forth the
                                    number of employees working the "Rush" production and the hours
                                    theyworked. This information was necessary in orderto calculate the
                                    employees' pension contributions. Kern caused union officials to
                                    falsify the reports by incorrectly reporting the number of employees
                                    eligible for contributions and the number of hours worked. The
                                    scheme allowed Kern and other long-time union members to
                                    enhance their pension benefits while depriving others of the benefit
                                    to which they were entitled.

                                    Kern is the third Local 1111 teamster official to be convicted. Former
                                    Teamster President Lynn Wells was convicted of receiving
                                    kickbacks from an insurance administrator in 1992. Darlene Brown,
                                    the Local's former office manager, was convicted of bank fraud and
                                    union embezzlement in 1994. An insurance administrator was also
                                    convicted. This investigation was conducted jointly with the Federal
                                    Bureau of Inw._stigation and the Pension and Welfare Benefits
                                    Administration. u.s.v. Kern(S.D.Texas)

                                    Impact:     This investigation has removed an individual from the
                                    movie industry who abused his influence from his previous position
                                    as the president of the teamsters local in order to enrich himself.
                                    Kern's influence in the Houston movie industry was so pervasive in
                                    that, for the last 10 years, he offered special incentives to movie
                                    production companies to hire teamster members without a formal
                                    contract and at a flat rate. His influence as past president and his
                                    close association with the union's current president assured him the
                                    ability to undercut legitimate union competition.



                                                     58
Semiannual Report to the Congress                                                        April 1 - September 30, 1995




                                    Breakdown of Allegation Reports by Source

COMPLAINT ANALYSIS                         Hotline Operations- Calls, Letters,Walk-ins
OFFICE ACTIVITIES                           from Individuals orOrganizations                                     146
                                           Lettersfrom Congress                                                   10
                                           Lettersfrom DOL agencies                                                5
                                           IncidentReportsfrom DOL agencies                                       14

                                           Total                                                                 175


                                    Breakdown of Allegation Reports by Referral

                                           ReferredtoOfficeofAudit                                                 4
                                           ReferredtoOI Regional/FieldOffices                                     47
                                           ReferredtoDOL programmanagement                                        99
                                           Referredtootheragencies                                                 9
                                           Nofurtheractionrequired                                                16

                                           Total                                                                 175




                                                      59
SemiannualReport to the Congress                                                                     April 1 - September30, 1995




                                                           APPENDIX
                                                    Office oflnvestiglations
                             Financial     Accomplishments      for April 1 - September   30, 1995



                                                                              PROGRAM                 LABOR
CATEGORIES                                                                    FRAUD                   RACKETEERING

Recoveries:                                                                      $640,068                                 N/A

    (The dollar amount/value of an agency's action to recover or
    reprogram funds or to make other adjustments in response
    to OI investigations.)


Cost Efficiencies:                                                               4,988,446                                N/A

    (The one-time or per annum dollar amount/value of
    management's   commitment,        in response to OI investiga-
    tions, to more efficiently utilize the Government's    re-
    sources.)


Restitutions:                                                                    1,256,377                        2,991,186

    (The dollar amount/value       of restitutions   resulting from OI
    criminal  investigations.)


Fines/Penalties:                                                                   417,246                          594,031

    (The dollar amount/value    of fines, assessments, seizures,
    court or investigative costs, or other penalties resulting from
    OI criminal investigations.)



Civil Monetary Actions:                                                            369,731                        3,345,290

    (The dollar amount/value of forfeitures, settlements, dam-
    ages, judgements, court costs, or other penalties resulting
    from OI civil investigations.)




TOTAL:                                                                         $7,671,868                        $6,930,507




                                                                   6O
Semiannual Report to the Congress                                                   April 1 - September 30, 1995




OFFICE OF EVALUATIONS AND INSPECTIONS

DOL Printing Acquisitions           During FY 1995, OIG's Office of Evaluations and Inspections
                                    conducted several reviews of the Department's compliance with
                                    laws governing the acquisition of printing services at the request of
                                    the Chairman of the Joint Committee on Printing. Specifically, we
                                    reviewed a sample of printing and duplicating procurements by the
                                    National Commission for Employment Policy (NCEP) and the Mine
                                    Safety and Health Administration (MSHA) to determine whether
                                    these services were purchased through the Government Printing
                                    Office (GPO), as required. We also reviewed the payment status of
                                    those direct contracts with commercial printers which came to our
                                    attention, to ensure that no appropriated funds were paid for
                                    unauthorized contracts.

                                    While DOL agencies have entered into direct commercial contracts
                                    for printing services on several occasions during the past year,
                                    including one instance each by NCEP and MSHA, the Department's
                                    internal controls have generally ensured statutory compliance by
                                    preventing the payment of appropriated funds for improper contracts.
                                    Following the NCEP and MSHA reviews, the Department
                                    implemented corrective actions more extensive than those we had
                                    recommended.       We provided further recommendations to the
                                    Deputy Secretary to increase the guidance on printing requirements
                                    distributed to all DOL officials, particularly the political staff, in
                                    response to information from the Committee regarding two
                                    additional direct procurements, including an invoice suspended by
                                    OASAM for high-speed duplicating purchased by staff of the Office
                                    of the Secretary. Additional initiatives, such as revisions to the
                                    orientation briefings for new political appointees, are in process to
                                    address our recent memorandum and further improve DOL's
                                    compliance with requirements pertaining to the acquisition of printing
                                    and high-speed duplicating services.


Review of the Workers'              In response to our report concerning the workers' compensation
Compensation Program "              program for U.S. Postal Service employees, issued jointly with the
for Postal Service                  U.S. Postal Inspection Service on May 10, 1995, both the Office of
Employees (Resolution)              Workers' Compensation Programs (OWCP) and the U.S. Postal
                                    Service (USPS) have initiated substantive actions to further improve
                                    the program's operations and management. OWCP's corrective
                                    actions have focused upon a revised approach to technical



                                                     61
Semiannual Report to the Congress                                                     April 1 - September 30, 1995




                                    assistance which emphasizes identifying program problems by
                                    employing agency and providing the specific training or other
                                    interventions necessary to resolve the identified problems. OWCP
                                    has also undertaken a special project to review long-term disability
                                    issues for periodic roll cases which were not scheduled to receive
                                    attention under the management initiatives recognized in our report.
                                    The corrective actions instituted by OWCP will benefit not only USPS
                                    but all Federal employing agencies. USPS has placed primary
                                    emphasis upon increased training, improved systems and controls
                                    and revised procedures to resolve the recommendations in our
                                    report. In addition, USPS is developing new incentives to encourage
                                    the reemployment of injured workers and has established a task
                                    force to address limited duty concerns.

                                    Both USPS and OWCP are currently strengthening their systems for
                                    ensuring that notice of injury forms and compensation claims are
                                    submitted timely to OWCP to prevent interruptions in the incomes of
                                    injured Postal employees° USPS has encouraged their District
                                    offices to use available automated systems more effectively and to
                                    establish procedures to report and track actions regarding
                                    workplace injuries, including the submission of applicable forms,
                                    within 24 hours of an employee advising his/her supervisor of an
                                    injury. USPS has also increased training to ensure that line
                                    supervisors understand their responsibilities in the event of an injury
                                    and has developed new procedures to notify employees of their right
                                    to select a physician and authorize payment of related medical
                                    expenses. OVVCP has instructed District offices to monitor the
                                    timeliness of receipt of notice of injury forms and compensation
                                    claims by employing agency and to provide outreach and technical
                                    assistance where problems are evident.

                                    With regard to the reemployment of injured workers, both OWCP and
                                    USPS had successful management initiatives in process at the time
                                    of our reviewto improve;the effectiveness of their actions in this area.
                                    In response to our report which identified the potential for some
                                    further improvements, the agencies have expanded their efforts. For
                                    example, USPS established an automated national tracking system
                                    to be implemented in conjunction with a National Limited Duty Task
                                    Force to promote more effective management and monitoring of the
                                    limited duty program. Inearly FY 96, USPS is planning to announce
                                    a special incentive to encourage field offices to return to the
                                    workplace injured workers who are able to perform some productive
                                    work. OWCP has undertaken a special project to ensure that



                                                     62
Semiannual Report to the Congress                                                  April 1 - September 30, 1995




                                    medical evidence is current and reemployment will be timely for an
                                    estimated 680 traditional periodic roll cases not included in the
                                    management initiatives recognized in our report.

                                    Additional corrective actions have been implemented to ensure that
                                    controversions or challenges of claims will be for appropriate
                                    reasons and fully supported by USPS and will receive complete
                                    responses from OWCP. Finally, newsystems and procedures have
                                    been implemented by both agencies to transfer health insurance
                                    enrollments in a more timely manner and to monitor follow-up actions
                                    to resolve reported fraud cases.




                                                    63
Semiannual Report to the Congress                                                                                                   April 1 - September 30, 1995




REPORTING REQUIREMENTS UNDER
THE INSPECTOR GENERAL ACT OF 1978

Requirement

Section 4(a)(2) - Review of Legislation and Regulation ........................................................................................                   ii-v

Section 5(a)(1) - Significant Problems,Abuses, and Deficiencies ....................................................................... ALL

Section 5(a)(2) - Recommendations With Respect to Significant Problems,
 Abuses, and Deficiencies ..............................................................................................................................         ALL

Section 5(a)(3)- Prior Recommendations Not YetCompleted ............................................................................... 79

Section 5(a)(4) - Matters Referred to Prosecutive Authorities .................................................................................                      1

Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
 Information Was Refused .................................................................................... ........................................ None

Section 5(a)(6) - List of Audit Reports ..................................................................................................................         82

Section 5(a)(8) - Statistical Tables on Management Decisions on
 Questioned Costs ............................................................................................................................................     73

Section 5(a)(9) - Statistical Tables on Management Decisions on
 Recommendations That Funds Be Put to Better Use ........................................................................................ 78

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old for
 Which No Management Decision Has Been Made ............................................................................................                           76

Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision .........................................................................................................................             31

Section 5(a)(12) - Information on Any Significant Management Decisions with
 Which the Inspector General Disagrees ........................................................................................................                  None


Senate Report No. 96-829

Resolution of Audits ........................................................................................................................................ 73-75
Delinquent Debts ................................................................................................................................................. 67



Note: This table cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as
amended, to the specific pages where they are addressed. The information requested by the Congress in Senate
Report No. 96-829 relative to the 1980 Supplemental Appropriations and Rescissions Bill, is also cross-referenced
to the appropriate pages of the report.



                                                                                64
Semiannual
       Report
           totheCongress                                                                                             April1 - September
                                                                                                                                     30,1995




                                                 AUDIT SCHEDULES

Money Owed the Department of Labor .........................................................................................................   67

This schedule depicts the amount of money that is owed to the Department of Labor. In order to demonstrate the
extent of change in the balances owedto the Department,data is provided onthe amounts owed at both the beginning
and end of the 6-month reporting period. The schedule alsoreportson those amountswhich were appealed, collected,
and written-off, aswell as the amounts adjusted as a result of any appeals and revised management decisions.

Summary of Audit Activity of DOL Programs ................................................................................................     68

This schedule summarizes, by DOL agency,the number of audit reports issued during the 6-month reporting period,
the amount of dollars audited, and the amount of dollars questioned by auditors as having been improperly ex-
pended.

Summary of Audit Activity of ETA Programs .................................................................................................    69

This schedule details, for the Employment and Training Administration (ETA), the number of audit reports issued
during the 6-month reporting period, the amount of dollars audited, and the costs questioned by auditors as having
been improperly expended. (This additional detail is provided since most of DOL funds are in ETA.)

Summary of Audits Performed Under the Single Audit Act..........................................................................               70

This schedule summarizes the audit reports, issued during the 6-month reporting period, which were prepared in
accordance with the Single Audit Act. This schedule also details the amount of dollars audited, as well as the costs
questioned by auditors as having been improperly expended.

Summary of Audits Performed Under the Single Audit Act: Multi-Agency Program Reports ..................... 71

This schedule depicts the number of single audit reports, issued during the 6-month reporting period, that covered
more than one Department of Labor program agency. This schedule also details the amount of dollars that were
audited, as well as the costs questioned by auditors as having been improperly expended.

Audits by Non-Federal Auditors, PCIE Semiannual Reporting - Summary Results of IG Reviews .............. 72

This schedule is a report to the Office of Management and Budget (OMB) on the quality and results of single audits
performed by non-Federal auditors during the 6-month reporting period.

Summary of Audit Resolution Activity: Questioned Costs............................................................................. 73

This schedule shows the extent to which DOL management has taken steps, during the 6-month reporting period, to
resolve the costs questioned as having been improperly expended. Audit resolution occurs when management
either agrees with the auditor's finding and disallows those coststhat were questioned, or management decides that
the expenditure should be allowed. (This schedule is required by Section 5(a)(8) of the Inspector General Act, as
amended.)




                                                                        65
Semiannual Report to the Congress                                                                                                          April 1 - September 30, 1995




Summary of Audit Resolution Activity: Unsupported Questioned Costs .......................................................                                         74

This schedule shows the extent to which DOL management has taken steps, during the 6-month reporting period, to
resolve the costs questioned by the auditor because they were not supported by appropriate records or documentation.
Audit resolution occurs when management either agrees with the auditor's finding and disallows those unsupported
costs that were questioned, or management decides that the expenditure should be allowed. (This schedule is required
by Section 5(a)(8) of the Inspector General Act, as amended.)

Summary of Audit Resolution Activity: Funds Put to Better Use ..................................................................                                   75

This schedule depicts the extent to which DOL management has taken steps, during the 6-month reporting period, to
resolve funds that the auditor recommended be put to better use. Audit resolution occurs when management either
agrees with the auditors finding, or management disagrees that: the funds can or should be put to better use. (This
schedule is required by Section 5(a)(9) of the Inspector General Act, as amended.)

Unresolved Audits Over 6 Months ..................................................................................................................                 76

This schedule presents a summary of all audit reports that continue to remain unresolved for more than 6 months. For
these reports, a management decision is still outstanding. (This schedule is required by Section 5(a)(10) of the
Inspector General Act, as amended.)

Summary of Final Action Activity: Disallowed Costs ....................................................................................                            77

This schedule presents the final action activity for costs that have been disallowed during the 6-month reporting period.
This schedule is included in the OIG Semiannual Report to demonstrate the flow of information to the Secretary's
Semiannual Management Report, which is issued by the Secretary as required by Section 5(b)(2) of the Inspector
General Act, as amended.

Summary of Final Action Activity: Funds Put to Better Use ..........................................................................                              78

This schedule depicts, by program agency, the final action activity during the 6-month reporting period for those funds
that were recommended by the auditor to be put to better use. This schedule is included in the OIG Semiannual Report
to demonstrate the flow of information to the Secretary's Semiannual Management Report, which is issued by the
Secretary as required by Section 5(b)(3) of the Inspector General Act, as amended.

Significant Recommendations Resolved for Over One Year on which Corrective Action Has Not
Been Completed, as of September 30, 1995 ...................................................................................................                      79

This schedule presents the significant audit recommendations which have been resolved for over one year and on which
corrective action has not been completed.

Final Audit Reports Issued ...............................................................................................................................        82

This schedule lists all audit reports that were issued during the 6-rnonth reporting period, as required by Section 5(a)(6)
of the Inspector General Act, as amended.




                                                                                    66
67
                             Summary       of Audit   Activity       of DOL    Programs
                                   April    1, 1995 - September         30, 1995

                   Reports                 Grant/Contract                           Questioned Costs
Agency             Issued                  Amount A.uditedI              Unsupported                 Other

osEc                     2                        $      3,000                   $         0       $           0

VETS                     1                            253,071                              0      $          0

ETA                    113                    47,454,854,468                     825,458                     0

ESA                      4                         64,.403,890                             0                 0

MSHA                     3                            582,018                              0          27,923

OASAM                    7                    58,929,431,534                   2,186,126                     0

OSHA                     7                             135,975                             0                 0

BLS                      1                                       0                         0                 0

PWBA                     1                                     0                           0               0

Multi -Agency          47                     16,420,767,193                   4,065,573                   0

OT AGY                  2                                      0                           0               0

Totals                188                   $122,870,431,149                  $7,077,157           $27,923



1Grant/Contract Amount Audited is overstated because, in some cases, expenditures were audited at more than one
level as funds were passed down from Department to program _tgency, to program office, to grantee/contractor, to
subrecipient.




                                                       68
                    Summary     of Audit    Activity   of ETA    Programs
                        April   1, 1995     - September   30, 1995



          Reports                 Grant/Contract                        Questioned Costs
Program   Issued                  Amount Audited                Unsupported            Other

UIS            2                  $ 47,142,055,000                  $        0       $         0

ADMIN          2                           2,206,199                      0                    0

JTPA           4                           2,500,560               299,771                     0

USES           2                           1,515,293                         0                 0

DINAP         68                        30,745,285                 350,061                     0

DOWP           7                       159,286,588                        0                    0

DSFP          17                        34,464,509                 175,332                     0

OJC            6                        70,000,000                        0                    0

OPR            5                        12,081,034                      294                    0

Totals       113                  $47,454,854,468                 $825,458                 $0




                                               69
                    Summary of Audits Performed Under the Single Audit Act
                              April 1, 1995 - September 30, 1995


                Entities         Reports           Grant/Contract                  Questioned Costs
Agency          Audited          Issued            Amount Audited              Unsupported        Other


OSEC                        0         2               $        3,000            $         0           $       0

ETA                        31        96              226;,357,057               129,765                       0

VETS                        0         1                   253,071                         0                   0

MSHA                        1         2                   582,018                         0          27,923

OASAM                       0         1                        9,933                      0                   0

OSHA                        0         6                   135,975                         0                   0

Multi-Agency                5        47            3,735,288,193              4,065,573                       0

OT AGY                      1         2                            0                      0                0

Tomls                      38      157           $3,962,629,247              $4,195,338             $27,923



Note: DOL has cognizant responsibility for specific enllities und,er the Single Audit Act.     More than one audit
report may have been transmitted or issued for an entity during this time period. Reports      are transmitted or issued
based on the type of funding and the agency/program responsible for resolution. During        this period, DOL issued
reports on 38 entities for which DOL was cognizant; in addition, DOL issued 91 reports        which included direct
DOL funds for which DOL was not cognizant.




                                                          70
                   Summary      of Audits     Performed       Under       the Single   Audit   Act
                                      Multi-Agency      Program       Reports
                                  April     1, 1995   - September         30, 1995



                             Number of                                         Questioned Costs
Agency                   Recommendations                  Unsupported                                Other

VETS                              1                               9,711                                  0

ETA:
 ADMIN                            1                               35,000                                 0
 UIS                             18                             372,531                                  0
 USES                             2                                7,464                                 0
 SESA                             5                              141,647                                 0
 OTAA                             3                                5,617                                 0
 JTPA                            20                           3,437,607                                  0
 CETA                             1                                1,401                                 0
 DOWP                             2                               34,303                                 0

OSHA                              1                              20,292                                  0

Totals                           54                          $4,065,573                                  $0



Note: Multi-Agency Program Reports relate to Single Audit reports. The report may be on a statewide audit
where DOL has accepted "lead" cognizance or it may be on a single entity under the direct responsibility of DOL.
If multiple DOL programs were attdited, the multi-agency designation was used. Individual recommendations
within the report designate which agency/program is responsible for resolution. Fifty-four recommendations are
contained within the 47 multi-agency reports issued this period.




                                                        71
        _._       °° o oo o oo o o o = = = = = =




.=. =



=_
 _r_



                                       °_




                                 "_;
                                 ¢1    _:     o        o
              o                             ® o
                                              =   r3




                            72
    _o ooooo_o_o_o_o_oo_ooooo_o




                                            ° o_


                                            I__               °
_                                           - ° _
                                            ,
                                            •._   _
                                                      g



                   -         _    ,     _i _          __



°                                           _ _._
                  _ _        _    _     _         .- ,_._
              -                         _                 _




                                  _._                     -   _




                        73
                                                        o




        _I_   _°   °°°°°_°_°_°°°°°°_°-
                                 _                _     _




          _ _°     °°°°°_°_°_°_°°_°°_°_.,
                                   c_ -       _   .=   J_



_ _'_   "_o   °°   ooooo_o_o_o_oo_oo_o_           _    __o



         l=oi
                                                       °_




                                                       0




                                                       0




                                         74
      J_




      _5




           _m




      _ _ _oooooooo,
                  _




_-_   _             oooooooo   o



                _   goooooog   g


      ,.._;
      _E




                                   75
                                                       Unresolved Audits Over 6 Months
                                                      April 1, 1995 - September 30, 1995
                              Date                Audit                                                                       No of         Questioned
 Agency         Program      Issued            Report Number                  Name of Audit/Auditee                            Rec                Costs

 Under Investigation      or Litigation:

 ETA            DINAP        03-FEB-94         18-94-007-03-355               NEBRASKA INTER-TRIBAL                              10         $ 607,354
 ETA            JTPA         25-SEP-92         06-92-010-03-340               EAST TEXAS CNCL OF GOVT                            13          5,780,925
 ETA            DFREP        08-FEB-95         18-95-007-03-365               MISSISSIPPI DELTA COUNCIL                           4             229,969
 ETA            JTPA         14-SEP-94         02-94-263-03-340               JTPA OJT BROKER                                     1          1,181,720

 Awaiting Resolution:
OSEC            ALLDOL      24-MAR-95          17-95-005-01-001               DOL CRJMINAL ENFORCEMENT 1                         12                      0
ETA             ADMIN       25-AUG-92          12-92-021-03-001               UNEMPLOY TRUST FUND FY 912                          1                      0
ETA             ADMIN       25_AUG-92          12-92-022-03-001               ETA FY 91 FIN STMTS 2                               2                      0
ETA             ADMIN       30-SEP-93          12-93-001-03-001               ETA FY 92 FIN STMTS 2                               5                      0
ETA            SESA         24-AUG-94          12-94-017-03-325               ADES SCHEDULE OF US DOL FINANC 3                   4             259,084
ETA            SESA         20-DEC-94          04-95-007-03-325               STATE OF ALA]:IAh/IA t                             2               4,101
ETA            USES         18-AUG-94          04-94-021-03-320               TARGETED JOBS TAX CREDIT PROGR l                   1                     0
ETA            UIS          31-MAR-94          09-94-002-03-315               UCFC/UCX PAYMENT VERIFICATION 1                    2                     0
ETA            JTPA         28-FEB-95          04-95-013-03-340               GEORGIA DEPT OF LABOR 11                           3                     0
ETA            JTPA         22-DEC-94          04-95-003-03-340               SELECTED CONTRACTS CSRA'                           3             236,538
ETA            JTPA          17-APR-91         05-91-012-03-340               SEATI'LE KING COUNTY'                              2              15,751
ETA            JTPA         29-MAR-94          06-94-001-03-340               NAVAJO NATION 6                                    3             677,574
ETA            DINAP        23-MAR-95          06-95-239-03-355               STANDING ROClC                                     1                     0
ETA            DFREP        08-FEB-95          18-95-007-03-365               FARMWORKERS OPPORTUNITY 9                          1                     0
ETA            OJC          07-DEC-94          18-95-005-03-370               TRANSPORTATION    COMMUN. INT. n                   5                     0
OASAM          ADMIN        30-SEP-93          12-93-008-07-001               FY 92 C.ONSOLIDATED FIN STMTS 2                    1                     0
OASAM          ADMIN        02-SEP-94          12-94-012-O7-001               DOL CONSOLIDATED FIN STMTS 2                       1                     0
OASAM          COMP         30-SEP-93          12-93-011-07-710               FY 92 WORKING CAPITAL FUND 2                       3                     0
OASAM          DAPP         14-MAR-95          17-95-002-07-730               DOL COMPLIANCE WITH ENERGY ACT 2                   2                     0
OASAM          OPGM         30-SEP-91          18-91-035-07-735               OIC OF AMERICA 5                                  13             481,785
OASAM          OPGM         19-AUG-94          18-94-019-07-735               OIC OF AMERICA 5                                   3             554,867
OASAM          OPGM         24-JUN-94          18-94-0 14-07-735              ILLINOXS MIGRANT COUNCIL 9                         1                     0
OASAM          OPGM         06-JUN-94          18-94-008-07-735               NATIONAL COUNCIL OF LA RAZA 9                      2                     0
OASAM          OPGM         27-AUG-94          18-94-021-07-735               WAVE INC.*                                         3           1,206,216
OASAM          OPGM         04-NOV-94          18-95-001-07-735               HOME BUILDERS INSTITUTE 1°                         1             628,158
OASAM          OPGM         04-NOV-94          18-95-002-07-735               HOME BUILDERS INSTITUTE l°                         2             748,379
OASAM          OPGM         11-NOV-94          18-95-003-07-735               HOME BUILDERS INSTITUTE t°                         7             353,479
OASAM          OPGM         31-MAR-95          18-95-012-07-735               MOTIVATION EDUCATION & TRAINING             8      4              38,523
BLS            ADMIN        30-SEP-93          12-93-009-11-001               BLS FY 92 FINANCIAL STATEMENTS 2                   1                     0

Pending Indirect Cost Negotiations:

ETA            OJC          10-SEP-92         18-92-027-03-370                LEO A. DALY 7                                      2             210,695
ETA            OJC          04-MAR-94         18-94-009-03-370                LEO A. DALY 7                                      1             231,610
ETA            OJC          04-MAR-94         18-94-010-03-370                LEO A. DALY 7                                      1             274,400
ETA            OJC          04-MAR-94         18-94-011-03-370                LEO A. DALY 7                                      1             116,565
OASAM          OPGM         17-SEP-93         18-93-011-07-735                INTERNATIONAL      MASONRY INST 7                  1              72,926

TOTAL AUDIT EXCEPTIONS:                                                                                                        125        $13,910,619

Notes to "Unresolved       Audits Over 6 Months"
_Unresolved pending a response to the final audit report.
2Recommendations were reviewed under their respective current FY 94 audits and remain unresolved.
YI'he ETA section of the audit report is resolved.       We are awaiting information from other DOL agencies to resolve this report.

'q'he States have 180 days to issue a Final Management Decision.                Progr_tm Agencies and OIG have an additional 180 days to accept the State-
level decision.

YI'he audit is currently under the Department's       Alternative Dispute Resolution process as authorized by the Administrative Dispute Resolution Act.
_Auditee did not respond to all the recommendations         contained in the audit report.
7Pending completion of indirect cost negotiations and closure.
SETA Initial Management       Decision     issued, awaiting Final Management        Decision.
9ETA is   working   with grantee to resolve administrative        findings.
1°Resolution pending decision on the proper accounting of costs claimed by HBI.
HPending completion       of DOL study.

nETA, OIG, and the Office of Cost Determination           agreed to delay resolution.




                                                                                     76
77
          @




_'_   =       o ooooooooo   o




      ']1_
        °, °°°°°°_-°
                  _




                                78
79
8O
           J_

           °i
 TN        _




 Ei_   _   _       _   c_   _   _




r_




                c_ _        _




                                    81
                                                    FINAL AUDIT REPORTS ISSUED
                                                        01-APR-95 TO 30_SEP-95
                                                           Date Sent
 Audit                                                     to Program
 Report Number                Agency      Program          Agency            Name of Audlt/Auditee

 02-95-235-01-010             OSEC        ASP              01-MAY-95        RUTGERS, THE STATE UNIVERSITY OF NEW JERSEY - SA
 02-95-268-01-010             OSEC        ASP              29-SEP-95        RUTGERS, THE STATE UNIVERSITY OF NEW JERSEY - SA

 02-95-214-03-355             ETA        DINAP             01-MAY-95        SENECA NATION OF INDIANS - SA
 02-95-220-03-355             ETA        DINAP             01-MAY-95        SAINT REGIS MOHAWK TRIBE - SA
 02-95-229-03-355*            ETA        DINAP             25-MAY-95        MASHPEE WAMPANOAG INDIAN TRIBAL COUNCIL, INC. - SA
 02-95-243-03-355*            ETA        DINAP             01-MAY-95        AMERICAN INDIAN COMMUNITY HOUSE, INC. - SA
 02-95-244-03-355*            ETA        DINAP             01-MAY-95        AMERICAN INDIAN COMMUNITY HOUSE, INC. - SA
 02-95-245-03-355*            ETA        DINAP             03-MAY-95        POWHATAN RENAPE NATION - SA
 02-95-246-03-355"            ETA        D/NAP             03-MAY-95        POWHATAN RENAPE NATION - SA
 02-95-248-03-355             ETA        DINAP             03-MAY-95        SAINT REGIS MOHAWK TRIBE - SA
 02-95-251-03-355"            ETA        DINAP             25-MAY-95        NATIVE AMERICAN COMM. SVCS OF ERIE & NIAGARA - SA
 02-95-253-03-355*            ETA        DINAP             04-MAY-95        POWHAT._Rq'-RENAPE NATION - SA
 02-95-264-03-355             ETA        DINAP             22-SEP-95        SAINT REGIS MOHAWK TRIBE - SA

02-95-249-03-365*             ETA        DFREP             03-MAY-95        RURAL OPPORTUNITIES,           INC. AND AFFILIATES - SA
02-95-250-03-365*             ETA        DFREP             03-MAY-95        RURAL OPPORTUNITIES,           INC. AND AFFILIATES - SA
02-95-269-03-365"             ETA        DFREP             29-SEP-95        RURAL OPPORTUNITIES,           INC. AND AFFILIATES - SA

02-95-241-03-380              ETA        SPPD              03-MAY-95        RESEARCH FOUNDATION, THE CITY UNIVERSITY                     N.Y. - SA
02-95-242-03-380              ETA        SPPD              01-MAY-95        FOUNTAIN HOUSE, INC. - SA
02-95-247-03-380              ETA        SPPD              01-MAY-95        FOUNTAIN HOUSE, INC. - SA

02-95-267-07-750              OASAM      NCSC              29-SEP-95        NATIONAL BUREAU OF ECONOMIC                RESEARCH, INC. - SA

02-95-237-10-101             OSHA        OSHAG             01-MAY-95        CITY OF C.AMDEN NEW JERSEY - SA
02-95-238-10-101             OSHA        OSHAG             01-MAY-95        CITY OF CAMDEN NEW JERSEY - SA
02-95-239-10-101             OSHA        OSHAG             01-MAY-95        CITY OF C.AMDEN NEW JERSEY - SA
02-95-240-10-101             OSHA        OSHAG             01-MAY-95        CITY OF CAMDEN NEW JERSEY - SA
02-95-259-10-101             OSHA        OSHAG             22-SEP-95        MAINE TECHNICAL COLLEGE SYSTEM - SA
02-95-260-10-101             OSHA        OSHAG             22-SEP-95        GENERAL HOSPITAL CORP., MASSACHUSETTS                    GENERAL     - SA

02-95-203-50-598*            MULTI       _L               03-MAY-95         NATIONAL URBAN LEAGUE, INC. - SA
02-95-204-50-598"            MULTI       AL/DOL           03-MAY-95         NATIONAL URBAN LEAGUE, INC. - SA
02-95-212-50-598             MULTI       AL/DOL           03-MAY-95         STATE OF NEW JERSEY SINGLE AUDIT - SA
02-95-213-50-598             MULTI       AL/DOL           04-MAY-95         STATE OF NEW JERSEY SINGLE AUDIT - SA
02-95-216-50-598             MULTI       AL/DOL           03-MAY-95         STATE OF NEW YORK SINGLE AUDIT - SA
02-95-217-50-598             MULTI       AL/DOL           03-MAY-95         STATE OF NEW YORK SINGLE AUDIT - SA
02-95-218-50-598             MULTI       AJ_/DOL          04-MAY-95         ,STATE OF NEW YORK SINGLE AUDIT - SA
02-95-219-50-598             MULTI       AL/DOL           22-SEP-95         STATE OF NEW YORK - SA
02-95-234-50-598             MULTI       AL/DOL           01-MAY-95         COLUMBIA UNIVERSITY - SA
02-95-236-50-598             MULTI       AL/DOL           01-MAY-95         CORNELL UNIVERSITY - SA
02-95-254-50-598             MULTI       AL/DOL           02-JUN-95         COMMONWEALTH OF MASSACHUSETTS - SA
02-95-255-50-598             MULTI       AI..fDOL         22-SEP-95         STATE OF MAINE - SA
02-95-256-50-598             MULTI       AL/DOL           14-JUN-95         STATE OF VERMONT SINGLE AUDIT - SA
02-95-258-50-598*            MULTI       AL/DOL           22-SEP-95         TRAINING AND DEVELOPMENT CORPORATION                      - SA
02-95-261-50-598             MULTI       AL/DOL           22-SEP-95         CORNELL UNIVERSITY - SA
02-95-265-50-598             MULTI       AL/DOL           22-SEP-95         CORNELL UNIVERSITY - SA

03-95-011-03-315             ETA         UIS              2S-AUG-95         Lq's PERFORMANCE         MEASURES FOR FY 1994

03-95-028-03-340*            ETA         JTPA             29-SEP-95         NATIONAl_, ASSOCIATION         OF REHABILITATION          FACILITIES - SA
03-95-029-03-340"            ETA         JTPA             29-SEP-95         N'ATIONAL ASSOCIATION          OF REHABILITATION,         INC. - SA

03-95-025-03-360"            ETA         DOWP             26-SEP-95         AMERICAN ASSOCIATION           OF RETIRED PERSONS - SA
03-95-026-03-360*            ETA         DOWP             26-SEP-95         AMERICAN ASSOCIATION           OF RETIRED PERSONS - SA
03-95-027-03-360*            ETA         DOWP             26-SEP-95         tLMERICAN ASSOCIATION          OF RETIRED PERSONS - SA

03-95-016-03-370             ETA         OJC              29-SEP-95         JOB CORPS (SPAMIS)
03-95-017-03-370             ETA         OJC              27-JUL-95         GATEWAY JOB CORPS SPAMIS INTERNAL                 CONTROL STRUCTURE

03-95-010-10-001             OSHA        ADMIN            24-MAY-95         BLS FY 94 PERFORMANCE          MEASURES

*DOL has cognizant responsibility for specific entities under the Single Audit Act. Reports listed and asterisked above indicate those entities for which DOL
has cognizance. More than one audit report may have been issued or transmitted for an oat@ during this time period. Reports are issued on the type
funding and the agency/program responsible for resolution.



                                                                             82
                                        FINAL AUDIT REPORTS ISSUED
                                            01-APR-95 TO 30-SEP-95
                                            Date Sent
 Audit                                      to Program
 Report Number       Agency   Program       Agency       Name of Audit/Audltee

 03-95-015-11-001    BLS      ADMIN         28-AUG-95    IMPROVED RELIABILITY OF BLS AND UIS' EMPLOYMENT        DATA
 03-95-012-50-598    MULTI    AL/DOL        04-APR-95    COMMONWEALTH OF PENNSYLVANIA - SA
 03-95-013-50-598    MULTI    AL/DOL        07-APR-95    STATE OF MARYLAND - SA
 03-95-014-50-598    MULTI    AIJDOL        26-SEP-95    STATE OF DELAWARE - SA
 03-95-020-50-598*   MULTI    AL/DOL        22-AUG-95    STATE OF WEST VIRGINIA - SA
 03-95-022-50-598    MULTI    AIJDOL        15-SEP-95    COMMONWEALTH OF PENNSYLVANIA - SA
 03-95-023-50-598    MULTI    AIJDOL        26-SEP-95    STATE OF MARYLAND - SA
 03-95-024-50-598    MULTI    _L            26-SEP-95    STATE OF MARYLAND - SA

 04-95-031-02-210    VETS     VETSPM        22-SEP-95    GOVT. OF NASHVILLE AND DAVIDSON COUNTY, TN - SA

04-95-041-03-340     ETA      JTPA          28-SEP-95    METRA NASHVILLE, "IN
04-95-022-03-355*    ETA      DINAP         26-MAY-95    HALIWA-SAPONI INDIAN TRIBE, INC. - SA
04-95-023-03-355     ETA      DINAP         01-MAY-95    MISSISSIPPI BAND OF CHOCTAW INDIANS - SA
04-95-025-03-355     ETA      DINAP         20-JU_95     POARCH BAND OF CREEK INDIANS - SA
04-95-026-03-355*    ETA      DINAP         20-JU1._95   FLORIDA NON-PROFIT HOUSING INC. - SA
04-95-030-03-355"    ETA      DINAP         20-JUL-95    CUMBERLAND COUNTY ASSOC. FOR INDIAN PEOPLE, INC. - SA
04-95-034-03-355*    ETA      DINAP         28-SEP-95    FLORIDA GOVERNOR'S COUNCIL ON INDIANS AFFAIRS, INC. - SA

04-95-020-03-365     ETA      DFREP         26-MAY-95    DELTA HOUSING DEVELOPMENT CORP. - SA
04-95-032-03-365"    ETA      DFREP         28-SEP-95    HOMES IN PARTNERSHIP, INC. - SA
04-95-035-03-365*    ETA      DFREP         30-SEP-95    MS DELTA COUNCIL OF FARMWORKERS OPPORT. - SA

04-95-016-50-598     MULTI    AL/DOL        26-MAY-95    STATE OF NORTH CAROLINA - SA
04-95-024-50-598     MULTI    AL/DOL        01-MAY-95    STATE OF SOUTH CAROLINA STATEWIDE      SINGLE AUDIT - SA
04-95-036-50-598     MULTI    AL/DOL        28-SEP-95    STATE OF GEORGIA - SA
04-95-037-50-598"    MULTI    AL/DOL        22-SEP-95    YOUTH SERVICE USA, TENNESSEE - SA
04-95-038-50-598     MULTI    AL/DOL        20-JUL-95    STATE OF TENNESSEE - SA
04-95-040-50-598     MULTI    AL/DOL        28-8EP-95    STATE OF MISSISSIPPI - SA
04-95-042-50-598     MULTI    AL/DOL        29-SEP-95    COMMONWEALTH OF KENTUCKY - SA

04-95-027-98-599"    OT AGY   NO/DOL        08-JUN-95    BREVARD COUNTY, FLORIDA - SA
04-95-039-98-599     OT AGY   NO/DOL        29-SEP-95    ORANGE COUNTY, FLORIDA- SA

05-95-112-03-355'    ETA      DINAP         10-APR-95    INDIAN CENTER, INC. - SA
05-95-113-03-355'    ETA      DINAP         17-JUL-95    INDIANA AMERICAN INDIAN MANPOWER COUNCIL, INC. - SA
05-95-115-03-355     ETA      DINAP         13-SEP-95    AMERICAN INDIAN COUNCIL, INC. - SA
05-95-212-03-355     ETA      DINAI _       03-APR-95    MILLE LACS BAND OF CHIPPEWA INDIANS - SA
05-95-213-03-355     ETA      DINAP         26-APR-95    INTER-TRIBAL COUNCIL OF MICHIGAN - SA
05-95-214-03-355     ETA      DINAP         27-APR-95    WISCONSIN WINNEBAGO NATION - SA
05-95-217-03-355     ETA      DINAP         19-JUL-95    STOCKBRIDGE-MUNSEE COMMUNITY - SA
05-95-218-03-355     ETA      DINAP         20-JUI_95    FOND DU LAC RESERVATION - SA
05-95-219-03-355     ETA      DINAP         24-JUL-95    BOIS FORTE RESERVATION TRIBAL COUNCIL - SA
05-95-222-03-355     ETA      DINAP         26-JUL-95    SAC & FOX TRIBE OF THE MISSISSIPPI IN IOWA - SA
05-95-223-03-355     ETA      DINAP         27-JUL-95    MENOMINEE INDIAN TRIBE OF WISCONSIN - SA
05-95-224-03-355     ETA      DINAP         28-JUL-95    WHITE EARTH RESERVATION - SA
05-95-226-03-355     ETA      DINAP         14-AUG-95    GRAND TRAVERSE BAND OF OTTAWA & CHIPPEWA INDIANS - SA

05-95-220-03-360     ETA      DOWP          24-JUL-95    INDIANA FAMILY & SOCIAL SERVICES ADMINISTRATION        - SA

 05-95-114-03-365"   ETA      DFREP         19-JUL-95    NAF MULTICULTURAL HUMAN DEVELOPMENT            CORPORATION    - SA
"05-95-116-03-365'   ETA      DFREP         21-SEP-95    HOMES/CASAS, INC. - SA
 05-95-117-03-365'   ETA      DFREP         29-SEP-95    ILLINOIS MIGRANT COUNCIL - SA

05-95-007-03-370     ETA      OJC           19-MAY-95    JOB CORPS CAN WORK! VIDEO
05-95-009-03-370     ETA      OJC           29-SEP-95    JOB CORPS PROGRAM REPORT OF STUDENT OUTCOMES

05-95-221-06-601     MSHA     GRTEES       25-JUL-95     ILLINOIS DEPARTMENT     OF MINES AND MINERALS - SA

05-95-215-50-598     MULTI    AL/DOL       05-JUN-95     IOWA, STATE OF - SA
05-95-216-50-598     MULTI    AL/DOL       07-JUL-95     MISSOURI, STATE OF - SA
05-95-225-50-598     MULTI    AL/DOL       11-AUG-95     ONEIDA TRIBE OF INDIANS OF WISCONSIN    - SA
05-95-227-50-598     MULTI    AUDOL        25-AUG-95     OHIO, STATE OF - SA
05-95-228-50-598     MULTI    AI_fDOL      30-AUG-95     WISCONSIN, STATE OF - SA




                                                         83
                                        FINAL AUDrI' REPORTS ISSUED
                                            01-APR-95 TO 30-SEP-95
                                            Date Sent
 Audit                                      to Program
 Report Number       Agency   Program       Agency       Name of Audit/Auditee

 05-95-229-50-598    MULTI    AL/DOL        08-SEP-95    NEBRASKA, STATE OF - SA
 05-95-230-50-598    MULTI    AIJDOL        13-SEP-95    ILLINOIS DEPT. OF COMMERCE AND COMMUNITY           AFFAIRS - SA

06-95-11403-355"     ETA      DINAP          15-JUN-95   FOUR TR.IBES CONSORTIUM OF OKLAHOMA - SA
06-95-2464443-355    ETA      DINAP          10-MAY-95   SANTO DOMINGO TRIBE - SA
06-95-2474443-355    ETA      DINAP          10-MAY-95   OTOE-MISSOURIA TRIBE - SA
06-95-2484443-355    ETA      DINAP          19-MAY-95   CENTRAL TRIBES OF THE SHAWNEE AREA, INC. - SA
06-95-2494443-355    ETA      D/NAP         30-MAY-95    EIGHT NORTHERN INDIAN PUEBLOS COUNCIL - SA
06-95-250-03-355     ETA      D/NAP         31-MAY-95    SANTO DOMINGO TRIBE - SA
06-95-2514443-355    ETA      DINAP         13-JUN-95    ALAMO NAVAJO SCHOOL BOARD, INC. - SA
06-95-2524443-355    ETA      D/NAP         13-JUL-95    PUEBLO OF ZUNI - SA
06-95-2534443-355    ETA      D/NAP         13-JUL-95    CITIZEN BAND OF POTAWATOMI INDIANS - SA
06-95-2554443-355    ETA      DINAP         18-JUL-95    SOUTHERN UTE INDIAN TRIBE - SA
06-95-2564)3-355     ETA      D/NAP         18-JUL-95    TAOS PUEBLO CENTRAL MANAGEMENT SYSTEM - SA
06-95-2574)3-355     ETA      DINAP         03-AUG-95    PUEBLO OF ACOMA - SA
06-95-258-03-355     ETA      D/NAP         22-AUG-95    MUSCOGEE (CREEK) NATION - SA
06-95-2614443-355    ETA      DINAP         19-SEP-95    INTER-TRIBAL COUNCIL, INC. - SA
06-95-2624)3-355     ETA      DINAP         21-SEP-95    LOWER BRULE SIOUX TRIBE - SA

06-95-2434443-360    ETA      DOWP          11-APR-95    WYOMING DEPARTMENT OF HEALTH - SA
06-95-2444)3-360     ETA      DOWP          12-APR-95    ARKANSAS DEPARTMENT OF HUMAN SERVICES - SA
06-95-254-03-360     ETA      DOWP          13-JUL-95    NEW ME,X/CO STATE AGENCY ON AGING - SA

06-95-115-03-365'    ETA      DFREP         09-AUG-95    HOME EDUCATION LIVELIHOOD PROGRAM, INC. - SA
06-95-1164)3-365'    ETA      DFREP         25-AUG-95    MOTIVATION, EDUCATION & TRAINING, INC. - SA


06-954)014)64)01     MSHA     ADMIN         14-JUN-95    MSHA PERF. REVIEW OF OVERVIEW & SUPPLEMENTAL           INFO.

06-95-245-50-598     MULTI    AL/DOL        09-MAY-95    STATE O]F UTAH - SA
06-95-259-50-59g     MULTI    AJ./DOL       01-SEP-95    STATE O]F TEXAS - SA
06-95-260-50-598     MULTI    AL/DOL        05-SEP-95    STATE OF LOU/SIANA - SA

09-95-5584443-320*   ETA      USES          30-MAY-95    COOPERJkTIVE PERSONNEL    SERVICES - SA

09-95-5784443-340    ETA      JTPA          20-JUL-95    FEDERATED    STATES OF MICRONESlA   - SA

09-95-5484443-355    ETA      DINAP        05-MAY-95     THE NAVAJO NATION - SA
09-95-5504443-355    ETA      DINAP        23-MAY-95     METLAKATLA INDIAN COMMUNITY - SA
09-95-5514)3-355     ETA      DINAP        05-MAY-95     TULE RIVER TRIBAL COUNCIL - SA
09-95-5534443-355    ETA      DINAP        23-MAY-95     PASCUA YAQUI TRIBE - SA
09-95-55403-355*     ETA      DINAP        23-MAY-95     MANIILAQ MANPOWER - SA
09-95-5594)3-355"    ETA      D/NAP        30-MAY-95     CALIFORNIA INDIAN MANPOWER CONSORTIUM - SA
09-95-5624)3-355     ETA      DINAP        31-MAY-95     KOOTENAI TRIBE OF IDAHO - SA
09-95-566-03-355     ETA      DINAP        3 I-MAY-95    ALEUTIAN/PRIBILOF   ISLANDS ASSOCIATION, INC. - SA
09-95-5674443-355    ETA      DINAP        3 I-MAY-95    KODIAK AREA NATIVE ASSOCIATION - SA
09-95-5684443-355    ETA      DINAP         13-JUN-95    COLORADO RIVER INDIAN TRIBES - SA
09-95-5704443-355    ETA      DINAP         13-JUL-95    ALEUTI/E_I/PRIBILOF ISLANDS - SA
09-95-571-03-355     ETA      D/NAP        13-JUL-95     ALEUTIPd_//PR/BILOF ISLANDS - SA
09-95-5724443-355    ETA      DINAP        13-JUL-95     ALEUTIN/PRIBILOF ISLANDS - SA
09-95-5734443-355*   ETA      DINAP        13-JUL-95     UNITED INDIAN NATIONS, INC.
09-95-574-03-355*    ETA      DINAP        13-JUL-95     UNITED INDIAN NATIONS, INC.
09-95-5754)3-355'    ETA      DINAP        13-JUL-95     UNITED INDIAN NATIONS, INC.
09-95-5764)3-355"    ETA      DINAP        13-JUL-95     UNITED INDIAN NATIONS, INC. - SA
09-95-5774)3-355"    ETA      DINAP        13-JUI_95     PHOENIX INDIAN CENTER - SA
09-95-5804)3-355     ETA      DINAP        20.JUL-95     COOK INI,ET TRIBAL COUNCIL - SA
09-95-5824)3-355     ETA      D/NAP        07-AUG-95     ALU LIKE, INC, - SA
09-95-5834)3-355"    ETA      DINAP        14-AUG-95     LAS VEGAS INDIAN CENTER - SA

09-95-5554443-365*   ETA      DFREP        23-MAY-95     PROTEUS_ INC. - SA
09-95-5564443-365*   ETA      DFREP        12-JUL-95     PORTABLE PRACTICAL EDUCATIONAL PREPARTION - SA
09-95-5644)3-365     ETA      DFREP        31-MAY-95     R_    COMMUNITY ASSISTANCE CORPORATION - SA
09-95-5654443-365    ETA      DFREP        3 I-MAY-95    RURAL COMMUNITY ASSISTANCE CORPORATION - SA
09-95-5694443-365    ETA      DFREP        12-JUL-95     IDAHO MIGRANT COUNCIL - SA

09-95-5604446-601"   MSHA     GRTEES       3 I-MAY-95    IDAHO DEPART. OF LABOR & INDUSTRIAL        SERVICES - SA



                                                         84
                                       FINAL AUDIT REPORTS ISSUED
                                           01-APR-95 TO 30-SEP-95
                                             Date Sent
Audit                                        to Program
Report Number       Agency     Program       Agency         Name of Audlt/Auditee

09-95-003-07-751    OASAM      OFMS          26-APR-95      OASAM IMPREST FUND AUDIT - SF

09-95-006-12-121    PWBA       ENFORC        22-JUN-95      PWBA FY"94 PERFORMANCE MEASURES

09-95-549-50-598    MULTI      AL/DOL        05-MAY'-95     STATE OF CALIFORNIA - SA
09-95-552-50-598    MULTI      AL/DOL        05-MAY.-95     STATE OF OREGON - SA
09-95-561-50-598    MULTI      AL/DOL        3 I-MAY.-95    REPUBLIC OF THE MARSHALL ISLANDS - SA
09-95-563-50-598    MULTI      AL/DOL        09-JUN-95      STATE OF WASHINGTON - SA
09-95-581-50-598    MULTI      AL/DOL        08-AUG-95      STATE OF ALASKA - SA
09-95-584-50-598    MULTI      AL/I)OL       29-AUO-95      STATE OF NEVADA - SA
09-95-585-50-598*   MULTI      AL/DOL        25-AUO-95      IDAHO DEPARTMENT OF EMPLOYMENT - SA

12-95-008-03-315    ETA        UIS           14-AUG-95      UNEMPLOY.MENT      TRUST FUND FS FY. 1994

12-95-012-03-370    ETA        OJC           24-APR-95      JOB CORPS SPAMIS SYSTEM
12-95-013-03-370    ETA        OJC           15-JUN-95      IMPLEMENTATION OF JOB CORPS ZERO TOLERANCE           POLICY.

12-95-001-04-432    ESA        DLHWC         07-JUN-95      FY 94 LSHW FINANCIAL STATEMENTS
12-95-003-04-432    ESA        DLHWC         07-JUN-95      FY 94 DC WORKMEN'S COMPENSATION         FINANCIAL   STATEMENT

12-95-004-07-001    OASAM      ADMIN         15-JUN-95      FY 94 DOL CONSOLIDATED     FINANCIAL STATEMENTS

17-95-011-03-320    ETA        USES          31-JUL-95      LIMITED REVIEW OF AMERICA'S     JOB BANK

17-95-007-04-430    ESA        OWCP          30-SEP-95      AUDIT OF FECA PERFORMANCE MEASURES
17-95-008-04-430    ESA        OWCP          30-SEP-95      AUDIT OF BLACK LUNG PERFORMANCE MEASURES

18-95-016-03-001    ETA        ADMIN         18-JUL-95      AGUIRRE INTERNATIONAL
18-95-024-03-001    ETA        ADMIN         12-SEP-95      ABT ASSOCIATES

18-95-022-03-355    ETA        DINAP         12-SEP-95      NEBRASKA INDIAN INTER-TRIBAL        DEVELOPMENT     CORPORATION
18-95-023-03-355    ETA        DINAP         12-SEP-95      OGLALA SIOUX TRIBE

18-95-015-03-365    ETA        DFREP         18-JUL-95      AMERICAS CORPORATION

1g-95-017-03-380    ETA        SPPD          18-AUG--95     PREP, INC.
18-95-020-03-380    ETA        SPPD          15-SEP-95      MANPOWER     DEMONSTRATION     RESEARCH CORPORATION

18-95-014-07-735    OASAM      OPGM          20-JUL-95      CE_      VALLEY OPPORTUNITY CENTER
18-95-018-07-735    OASAM      OPGM          18-AUO-95      NATIONAL COUNCIL ON THE AGING, INC.
18-95-021-07-735    OASAM      OPGM          17-AU0-95      KRA CORPORATION
18-95-025-07-735    OASAM      OPGM          20-SEP-95      ASOCIACION NACIONAL PRO PERSONAS MAY.ORES


                             ¢rD'.S.GOVEB_rM_NT P_G        OFFICE: 1995 - 401-878 - 814/40426




                                                            85
